<html>
<title> - METRICS, MEASUREMENTS AND MISMANAGEMENT IN THE BOARD OF VETERANS' APPEALS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




   METRICS, MEASUREMENTS AND MISMANAGEMENT IN THE BOARD OF VETERANS' 
                                APPEALS

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY SEPTEMBER 10, 2014

                               __________

                           Serial No. 113-86

                               __________

       Printed for the use of the Committee on Veterans' Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
        
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-129                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATION

                    MIKE COFFMAN, Colorado, Chairman

DOUG LAMBORN, Colorado               ANN KIRKPATRICK, Arizona, Ranking 
DAVID P. ROE, Tennessee                  Member
TIM HUELSKAMP, Kansas                MARK TAKANO, California
DAN BENISHEK, Michigan               ANN M. KUSTER, New Hampshire
JACKIE WALORSKI, Indiana             BETO O'ROURKE, Texas
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.













                            C O N T E N T S

                              ----------                              

                     Wednesday, September 10, 2014

                                                                   Page
Metrics, Measurements and Mismanagement in the Board of Veterans' 
  Appeals........................................................     1

                           OPENING STATEMENTS

Hon. Mike Coffman, Chairman......................................     1
Hon. Ann Kirkpatrick, Ranking Member.............................     2
    Prepared Statement...........................................    41

                               WITNESSES

Ms. Kelli Kordich, Senior Counsel, Board of Veterans' Appeals....     4
    Prepared Statement...........................................    43

Mr. Zachary Hearn, Deputy Director for Claims, The American 
  Legion.........................................................     5
    Prepared Statement...........................................    55

Mr. Joe Violante, National Legislative Director, Disabled 
    American Veterans                                                 7
    Prepared Statement...........................................    58

Ms. Laura Eskenazi, Executive in Charge and Vice Chairman, Board 
  of Veterans' Appeals, Department of Veterans' Affairs..........    23
    Prepared Statement...........................................    66

    Accompanied by:

        Mr. James Ridgeway, Chief Counsel for Policy and 
            Procedure, Board of Veterans' Appeals, Department of 
            Veterans' Affairs

 
   METRICS, MEASUREMENTS AND MISMANAGEMENT IN THE BOARD OF VETERANS' 
                                APPEALS

                              ----------                              


                     Wednesday, September 10, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 1:01 p.m., in 
Room 340, Cannon House Office Building, Hon. Mike Coffman 
[chairman of the subcommittee] presiding.
    Present:  Representatives Coffman, Lamborn, Roe, Huelskamp, 
Walorski, Kirkpatrick, Takano, O'Rourke, and Walz.

          OPENING STATEMENT OF MIKE COFFMAN, CHAIRMAN

    Mr. Coffman. Good morning. This hearing will come to order. 
I want to welcome everyone to today's hearing entitled, 
``Metrics, Measurements and Mismanagement at the BVA.'' Today 
we will hear from both the VA and a witness from within VA's 
Board of Veterans' Appeals who has seen firsthand the tactics 
and strategies used by management to hide veterans' claims, 
rework time frames to cover up the length of time cases have 
been sitting within the BVA, and manipulate cases to achieve a 
goal of 55,170 claims adjudicated in a year. We will also hear 
from representatives from two veterans service organizations in 
regards to their experiences in representing veterans before 
the BVA.
    We have already seen evidence of data manipulation within 
the Veterans Health Administration, the Veterans Benefits 
Administration, and the Health Eligibility Center, and the 
lengths VA will go in order to cover it up. We must now add the 
Board of Veterans' Appeals to the list. An extensive House 
Veterans' Affairs Committee investigation, brought on largely 
through the bravery and honor displayed by VA whistleblowers, 
has uncovered numerous processes the BVA uses to manipulate 
data. For example the BVA has number one counted the same cases 
multiple times to pad its numbers and make it look like they 
are achieving high goals for processing veterans' claims. All 
the while older, more complex cases and the veterans involved 
in those cases are languishing in the name of the Board of 
Veterans' Appeals' goals. Number two, changed its reporting 
system on more than one occasion to hide how long upper 
management has been holding onto cases without adjudicating 
them. Number three, the BVA has inappropriately labeled, as in 
``abeyance,'' so that the clock stops and the excessive delays 
cannot be charged against them. Number four, it has implemented 
a ``rocket docket'' system to pull easy cases out of the docket 
order and adjudicate those cases to pad its numbers, even 
though the process violates the law and harms those veterans 
who have more complex cases and have already been waiting a 
long period of time for a decision. Number five, the BVA has 
arbitrarily increased yearly case production for administrative 
law judges which resulted in these judges simply signing cases 
without reviewing them and not taking advantage of available 
tools that would shorten the time for adjudicating veterans' 
claims. Number six, the Board of Veterans' Appeals has 
transferred cases from storage to the attorneys and 
administrative law judges even though they are already 
overloaded with cases, thereby hiding the amount of time a case 
has been sitting idle in case storage. And finally, number 
seven, cases are being processed and closed, then the original 
decision is vacated and that is counted as a completed case a 
second time. Then when it is returned to BVA for completion it 
is counted as a closed case for a third time. Out of the 55,170 
cases shown as completed last year only approximately 15,000 
were actually adjudicated. The remainder were remanded, which 
means that veterans still have not received a decision on their 
cases respectively.
    The whistleblowers testifying today will provide detailed 
insight into what has been going on within the Board of 
Veterans' Appeals. For its part the Board needs to respond to 
these claims and where necessary be held accountable for its 
actions. With that, I now yield to Ranking Member Kirkpatrick 
for any opening remarks she may have.

      OPENING STATEMENT OF ANN KIRKPATRICK, RANKING MEMBER

    Mrs. Kirkpatrick. Thank you, Mr. Chairman, for holding this 
hearing on this important topic. I also want to thank the 
witnesses for coming forward today to appear before this 
subcommittee.
    Over the last number of months I have become increasingly 
concerned that in the months and years ahead we may be facing a 
new crisis with veterans waiting too long for decisions on 
their appeals. This is of critical concern to all of us and 
having a hearing on the Board of Veterans' Appeals is long 
overdue. I am concerned about the number of complaints and 
letters from various sources who have made significant 
allegations that employees may be attempting to game the 
system; are providing poor leadership; or that the electronic 
processing system, VBMS, of which taxpayers have invested 
hundreds of millions of dollars, is not performing adequately 
at the appeal level. Indeed VBMS may not be ready for prime 
time.
    We must be assured that the data we get is accurate and 
represents the reality faced by our veterans. As we saw in 
Phoenix, this is essential not only for our oversight purposes 
but to ensure that senior VA leadership has an accurate picture 
in order to provide leadership plans for released appeals in 
the future and assure the appropriate resources and tools are 
applied to address the problems as they exist before we face 
another crisis.
    I routinely hear from veterans in my district in Arizona. 
They tell me they are waiting years to receive a decision on 
their appeals. This is unacceptable. Our veterans deserve 
better. This is what we are all focused on today, how to 
address the real delay faced by veterans. I think we can all 
agree that more needs to be done and that there is a real 
concern that we may be exchanging a backlog crisis for an 
appeals crisis.
    Nationally the average length of time to receive a decision 
on an appeal in fiscal year 2013 was 960 days, nearly three 
years. The number of appeals has continued to grow. BVA 
projects nearly a 20 percent increase in the number of cases 
received at the Board this year alone. As VA continues to 
adjudicate claims more quickly we should only anticipate the 
number of appeals waiting for a decision to increase.
    Another factor leading to the additional delays is that 
almost half the cases sent to the Board are remanded back to 
the VA for additional evidence, or due to errors on behalf of 
the VA. A remand adds another year to the process. Four years 
to make a decision on an appeal is intolerable.
    Solutions are needed to ensure that we begin to reduce 
these delays and to ensure that the delay in appeals is not the 
next big crisis. I am hopeful that today's hearing will provide 
us with the opportunity to begin to identify these solutions. 
One solution may be that more data is needed, not just better 
data. Congress, VA, veterans, and VSOs should all trust the 
quality of the data, be satisfied that the data we are getting 
provides us with the information we need. I wish to thank the 
American Legion for emphasizing this in its testimony. VA 
provides an extensive amount of weekly data on VBA claims by 
comparison. The Board of Veterans' Appeals provides an annual 
report.
    I hope that we can begin the discussion today on how we can 
provide our veterans with a better understanding of where we 
should be with regards to reaching timely outcomes on appeals. 
Simply put, veterans should receive better timelines and 
information than they currently get, and Congress should be 
receiving more frequently updates on the performance of BVA. 
Providing more comprehensive and accurate data will better 
enable us to provide oversight and work with BVA to find 
solutions to problems before these problems reach crisis 
status.
    Thank you, Mr. Chairman, and I yield back.

    [The prepared statement of Ann Kirkpatrick appears in the 
Appendix]

    Mr. Coffman. Thank you, Ranking Member Kirkpatrick. I ask 
that all members waive their opening remarks as per the 
committee's customs. With that, I invite the first panel to the 
witness table. And on this panel we will hear from Ms. Kelli 
Kordich, Senior Counsel, Board of Veterans' Appeals; and Mr. 
Zachary Hearn, Deputy Director for Claims, The American Legion; 
Joe Violante, National Legislative Director, Disabled American 
Veterans. I ask the witnesses to please stand and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Coffman. Very well. Please be seated. Your complete 
written statements will be made part of the hearing record. Ms. 
Kordich, you are now recognized for five minutes.

                 STATEMENT OF MS. KELLI KORDICH

    Ms. Kordich. I would like to thank you, Chairman Coffman 
and members of Congress, for allowing me to speak today. My 
name is Kelli Kordich and I am a senior counsel at the Board of 
Veterans' Appeals in Washington, D.C. I am also an Army veteran 
having served in the United States Army Transportation Corps 
for four years, attaining the rank of captain. I started 
working at the Board in December, 1999. I am here today because 
as a veteran I am appalled and saddened by unchecked 
mismanagement, corruption, and blatant disregard for our 
nation's veterans that has become characteristic of Board 
management in the pursuit of processing appeals at breakneck 
speed for management's own self-preservation rather than for 
the good of the veterans. I am also here as the voice for the 
many Board employees mired in a toxic management system that 
uses a culture of fear and intimidation to attain its goals. A 
few years ago I myself exposed a bullying and morally bankrupt 
manager and as a result have endured retaliation and 
intimidation by Board management. The Board's management is 
ruthless in stifling criticism, going so far as to weaponize 
the department-wide I CARE principles to label critics as anti-
veteran. All of the information I give you today has been 
backed up with evidence based on exhaustive research by myself 
and other dedicated employees at the Board who are desperate 
for the corruption and mismanagement to end but who justifiably 
were too afraid of retaliation by Board management to offer 
testimony today.
    Reports show that at least since 2012, and as recently as 
August 2014, Board management held cases in their possession 
for well in excess of 100 days to over a year. Most of the 
appeals languishing the longest were either simply awaiting 
review for signature, or just waiting to be assigned to an 
attorney. There was no legitimate business reason to allow the 
cases to languish for months. Disturbingly many of these long 
neglected appeals were ultimately remands or grants. Rather 
than addressing the issue of delays, the front office 
manipulated the Board's electronic record keeping system called 
VACOLS by electronically shifting around the oldest neglected 
cases to others in the chairman's office, and by removing the 
front office from the report. The Board also used a program 
called rocket docket to meet its production numbers at the 
expense of veterans. Specifically the appeals those veterans 
with large cases or more than two issues were not included in 
the screening process. In addition, the Board's management 
allowed approximately a hundred cases to be decided under this 
program out of docket order in violation of statute. And to 
this day Board management allows judges holding hearings to 
label a case as a rocket docket cases regardless of docket date 
to get the case quickly without a mechanism to prevent the 
judge from denying or granting a case out of docket order.
    At the beginning of fiscal year 2014 the Board announced a 
production goal of 55,170 cases. By March 2013, and even with 
attorneys working significant amounts of unpaid overtime to 
meet their own high production goals, people realized that the 
Board was not on track to reach this lofty production goal. In 
an effort to remedy this the production goals of the judges 
were dramatically and retroactively increased midyear. When 
most judges instantly found themselves below goal they were 
forced to review cases less thoroughly in order to catch up. At 
the same time the Board altered how cases were counted in 
reaching the production goal by no longer counting the use of 
independent medical opinions or Veterans Health Administration 
opinions towards the Board's production goal. Although both 
devices dramatically decrease how long a veteran has to wait 
for a decision the Board has seen a 47 percent decrease in the 
average monthly number of IME and VHA opinions requested. What 
this means is veterans will have to wait a considerably longer 
time for a decision on their appeal as their cases are remanded 
rather than sent for an IME or VHA opinion.
    BVA is also scrambling to get cases out of case storage 
that have an older docket number by literally forcing them into 
the hands of judges in order to transfer responsibility in the 
event that a veteran dies while the case is at the Board or if 
case status inquiries are made concerning the excessive length 
of time cases have waited to be transferred to the Office of 
Veterans Law Judges. There are cases that have sat unprocessed 
in case storage for over 400 days.
    To meet the production goal of 55,170 the Board in some 
cases has counted the same underlying appeal three times when 
reporting its production, thereby manipulating the production 
numbers reported to VA and Congress. Board management counts a 
remand of any case towards the Board's production goal, even 
though a remand is not a final decision and typically returns 
to the Board, often to be remanded again and thus counted 
multiple times in the Board's production report. For the 
current fiscal year, data reveals that no more than 
approximately 20,000 individual cases have had a final decision 
made.
    I hope I can further illuminate for this committee the 
increasingly toxic and veteran unfriendly actions that Board 
management has adopted in pursuit of their own agenda. Thank 
you, and I am happy to answer any questions you may have.

    [The prepared statement of Kelli Kordich appears in the 
Appendix]

    Mr. Coffman. Thank you, Ms. Kordich. Thank you for your 
service in the United States Army, and thank you for your 
service to the Department of Veterans Affairs, and for your 
courage to step forward today. Mr. Hearn, you have five minutes 
please.

                 STATEMENT OF MR. ZACHARY HEARN

    Mr. Hearn. Thank you. Good afternoon, Chairman Coffman, 
Ranking Member Kirkpatrick, and members of the committee. On 
behalf of our new National Commander Mike Helm and the 2.4 
million members of the American Legion, thank you for allowing 
us to testify regarding the problems with the appeals process 
74.5 percent, that is the percentage of claims holding the 
American Legion as power of attorney that have either been 
granted or remanded by BVA this fiscal year through September 
1, 2014. Of the 8,366 claims holding American Legion power of 
attorney that received dispositions during this time period, 
2,330 decisions previously provided by a regional office were 
overturned and a grant of benefits were awarded. Another 3,904 
claims were determined to have been inadequately developed and 
prematurely denied. Unfortunately, for those 3,904 claims 
remanded, and those claimants seeking benefits, their quest for 
VA benefits continues. These claims were remanded for numerous 
reasons to include, but not limited to, inadequate compensation 
and pension examinations; inadequate development of claims at 
the VA regional office; and failure to consider claims as 
manifesting secondary or being aggravating by previously 
service-connected conditions. These remands result in claims 
not receiving a decision and requiring development as required 
by the Veterans Law Judges at BVA. Sadly, claims are often 
remanded two, three, or even more times prior to having a claim 
finally be adjudicated. Quite simply, this is unacceptable.
    As has been widely discussed veterans are having to wait 
for extended periods of times for original decisions. Combine 
this fact with years of waiting for a claim to be adjudicated 
by the BVA and it is understandable why veterans become 
frustrated.
    When I first began my employment with the American Legion I 
worked at BVA and worked with these veterans to receive their 
benefits. Often they would ask why it takes years to have a 
claim adjudicated by the Board. You could sense the frustration 
and the angst in their voice. The only way I could explain the 
scenario was that there were 56 regional offices and the 
Appeals Management Center. I would ask them to envision 
approaching a major city on the interstate, and how the 
interstate might go from four to six lanes to accommodate the 
traffic. Then I asked them to imagine over 50 lanes merging 
into one, and it is rush hour. This allowed them to visualize 
the pressures that BVA endures.
    The American Legion employs approximately a dozen 
professional staff and additional support staff dedicated to 
represent claimants seeking their benefits. I have immense 
respect for the work they do. Daily they report to work knowing 
that for the veterans they represent it is often the last 
chance to rectify previous errors. A good friend once told me 
it is not enough to do well, you must do some good. Members of 
the committee, these men and women employed by the American 
Legion at BVA do good each day.
    Repeatedly the American Legion has testified regarding the 
need for VA to improve its accuracy in the adjudication of VA 
disability claims at the regional office. The impetus for these 
comments does not lie solely in the willful statistics 
indicated by BVA remands and grants, and they are not solely 
dependent upon the results of various Office of the Inspector 
General reports. They are reflective of the results of the 
American Legion's regional office action review visits.
    The American Legion spends significant time and energy to 
review the manner in which VA adjudicates claims at regional 
offices. Routinely during these visits we discover the same 
errors that would result in grants or remands at BVA. These 
visits are not rooted in an effort to prove the flaws of VA. 
Instead they are rooted in the belief that we can identify 
common errors by VA adjudicators.
    Just yesterday I attended a round table hosted by Senators 
Bob Casey and Dean Heller. During the meeting representatives 
of the American Federation of Government Employees indicated 
that newly hired employees are being rushed into production 
without comprehensive training. Even VA's own employees 
recognize the complexity of VA claims and are calling for 
increased training to ensure that they can meet the needs of 
our veterans.
    Today, we are here to discuss the BVA. However to only 
focus upon BVA only discusses the symptom. The American Legion 
wants to treat the disease.
    A review of VA's September 8, 2014, Monday morning workload 
report reveals 280,297 claims have been appealed and are 
awaiting adjudication. The number of claims have increased by 
over 21,000 during this fiscal year. You do not need to be a 
prophet to forecast that with questionable accuracy in the 
adjudication of claims will result in an increase of appeals. 
It is evident we must continue to press to ensure that VA 
improves its accuracy of disability claims for the errors made 
today have long-lasting, deleterious effects upon our nation's 
veterans and their families.
    Again, on behalf of National Commander Mike Helm and our 
2.4 million members, we thank the committee for inviting us 
here to speak today. And I will be happy to answer any 
questions offered by the committee. Thank you.

    [The prepared statement of Zachary Hearn appears in the 
Appendix]

    Mr. Coffman. Mr. Hearn, thank you for your service to our 
country, and for your advocacy and the American Legion on 
behalf of our veterans. Mr. Violante, you have five minutes.

                 STATEMENT OF MR. JOE VIOLANTE

    Mr. Violante. Chairman Coffman, Ranking Member Kirkpatrick, 
and members of the subcommittee, on behalf of DAV I am pleased 
to testify on ways to improve the appeals process. Although VBA 
has made significant progress in addressing the pending backlog 
of claims the single most important action that VBA can take 
regarding the backlog of pending appeals is to complete its 
transformation and reform the claims process. Quite simply, if 
the error rate goes down and if confidence in the claims 
process increases, there is a possibility that the percentage 
of claimants who become appellants would decline.
    Today, there are two main options for appellants: the 
traditional appeals process intended to be decided at the Board 
and the local Decision Review Officer, or DRO, post-
determination review process. The importance of the DRO review 
process cannot be overstated, since a DRO has a de novo 
authority, meaning they review the entire claims file with no 
deference giving to the rating board decision being contested. 
A DRO can overturn or uphold a previous decision, request a 
hearing to gather additional evidence, or perform any 
administrative function available to VBA. DAV strongly supports 
the DRO program but we believe that the number of DROs at some 
regional offices around the country is insufficient. More 
concerning is the assignment of normal claims processing work 
to DROs at some regional offices for some or all of their time. 
It is imperative that VBA ensure that DRO focus solely on 
appeals work.
    For those appeals that go the traditional route to the 
Board, one of the most critical factors affecting the length of 
time to properly decide an appeal is availability of sufficient 
resources, primarily staffing and space. While Congress has 
provided the Board with additional appropriations to increase 
its staffing over the past two years, there are concerns about 
how the Board will provide adequate work space for its entire 
newly hired staff. The Board is also exploring ways to increase 
efficiency, such as the initiative known as the rocket docket, 
which operated from November 2013 through May 2014. Under the 
rocket docket program cases that met certain criteria were 
screened outside the normal docket order to determine if the 
remand was warranted. If that determination was made the Board 
ordered the development earlier in the process, thereby 
allowing quicker outcomes for veterans while maintaining the 
original docket order for each appeal. Overall, the rocket 
docket appears to have been a benefit for veterans.
    Finally, Mr. Chairman, for the past six months DAV, the 
American Legion, PVA, VFW, AMVETS, and VVA have been discussing 
ways to improve the appeals process. After multiple 
consultations among ourselves and with leaders of the Board and 
VBA we have built consensus around a proposal we are calling 
the Fully Developed Appeals, or FDA program. This program is 
built upon the same general principles as the Fully Developed 
Claims program. In the FDA program there would be no VBA 
processing or certification and no hearings either locally or 
at the Board. The elimination of these steps alone could save 
two to three years of processing time. The veteran would have 
the ability to submit additional evidence and an argument to 
support the appeal when they file their FDA. This program, 
which we believe must begin as a statutorily authorized pilot 
program, would be totally voluntary. A veteran would have to 
opt into it and would retain the right to withdraw their FDA 
appeal and return to traditional process at any time for any 
reason.
    There are details that will need to be worked out but that 
can only occur as legislative language is drafted and reviewed 
by all stakeholders. In developing this proposal we greatly 
benefitted from the work done by Congressman O'Rourke, a member 
of the subcommittee, and Congressman Cook, a member of the full 
committee, and their sponsorship of H.R. 4616 The Express 
Appeals Act. Although we did not build or base our proposal 
solely on that legislation, and there are differences that are 
important to us, the FDA proposal was informed by their work 
and strengthened by conversations with their staffs as well as 
with the staffs of both committees.
    Mr. Chairman, the information we are hearing today, it is 
hard to explain how these things happen. But we believe you 
identified the problem. Now we need to work to fix the 
solution. And like my colleague from the American Legion, we 
are looking for solutions to make sure that veterans' cases are 
decided timely and accurately. Thank you.

    [The prepared statement of Joe Violante appears in the 
Appendix]

    Mr. Coffman. Thank you, Mr. Violante. Thank you so much for 
your service to our country, and your advocacy on behalf of 
veterans as a member of the Disabled American Veterans.
    I am going to begin some questions. Ms. Kordich, I am going 
to focus on you, on three questions I want to ask. The first 
one is, are you aware of any ways in which the Board is 
manipulating data in its reports as part of its quest to 
achieve the 55,170 production goal?
    Ms. Kordich. Yes, sir. What is happening is that the Board 
is counting remands, which are not final decisions, more than 
once. And we also have cases that we call Bryant cases which 
are being counted more than once, sometimes three times.
    Mr. Coffman. Thank you. It makes sense to count a grant or 
a denial as a case in production numbers. But do you think a 
remand should count as well since the case has not actually 
been adjudicated?
    Ms. Kordich. No sir, I do not. A remand, as I said earlier, 
comes back sometimes numerous times. Sometimes it may not come 
back in the same fiscal year, but sometimes it does so it is 
counted maybe twice during the same fiscal year. Also the 
remand rate right now, if you take the remands out of the cases 
that have been reported you have approximately 20,000 cases 
that had final decisions. Now if you count cases that are final 
decisions, plus some cases have remands that go with them so 
they are sort of a hybrid type of case. So even counting them 
you have approximately 33,000 cases that have been dispatched, 
no where near the 55,000 which is our goal for this fiscal 
year. So no, I do not believe that a remand should be counted 
because it is not, and the basic premise is, or the bottom line 
is, is that it is not a final decision and you keep going back 
to the well for the same, it is the same number over and over 
again.
    Mr. Coffman. Are you aware of any other ways in which the 
Board is manipulating data in how it reports it progress 
towards the 55,170 production goal?
    Ms. Kordich. Yes, sir. There are cases that we call Bryant 
cases. And VA entered into a settlement agreement through the 
federal court and we gave the appellants an option to vacate 
their cases and have another hearing. And approximately 400 
appellants chose to vacate. So we counted those when we vacated 
them. Then they had a hearing and then they had another 
decision issued, and so we counted those. So what we have here, 
and you have, and I believe that this is also an exhibit that 
the committee has. So what you have is the case going out, 
first being counted. Then you had the lawsuit, which we then 
had to vacate the cases. Then you had the hearing. And then the 
third on the same decision goes out when you have the final 
decision. So you had three, that case, those cases were counted 
three times.
    Mr. Coffman. And my last question, there seems to be a 
difference in the panel. Mr. Violante stated I believe that the 
rocket docket was good for vets, if I understand this testimony 
correctly. But Ms. Kordich, you are saying that it is not. And 
I am wondering if you could elaborate on that difference?
    Ms. Kordich. Yes, sir. The rocket docket premise is that 
under 38 U.S.C. 7107(a), the subsection A, cases must be 
adjudicated in docket order, except for a few exceptions. And 
those exceptions one of them is what they use for the rocket 
docket, is that if a case needs to be developed, if it needs 
further evidence in order to adjudicate, then we can remand it 
back. Which is fine if in fact you screen all the cases. 
However, on December 13, 2013, a member of the Vice Chairman's 
staff sent out an email indicating that we were going to start 
the rocket docket program, and the program essentially gave the 
parameters for how we would do the program. So the program 
would have overtime attorneys screening cases. There would be 
no box cases screened. There would be no cases with more than 
two issues screened. This leads us to having those veterans who 
are not accommodating enough to have small cases or less than 
two issues having their cases languish in case storage even 
though they have an old docket number. So the procedure of the 
screening was a problem.
    Also, those attorneys who were screening the cases only got 
20 minutes to screen each case. So they were allowed three 
cases an hour in order to screen on overtime. Also, the 
attorneys who screened the cases were not the ones who actually 
wrote the remand for the cases. So you have a duplication of 
work and overtime effort whereas it would have been a lot 
simpler just to have the same attorney that actually reviewed 
the case to write the case.
    Mr. Coffman. Thank you, Ms. Kordich. Ranking Member Ann 
Kirkpatrick.
    Mrs. Kirkpatrick. Ms. Kordich, I want to follow up on that 
line of questioning. How many hands then touch a single file in 
the appeals process?
    Ms. Kordich. Do you mean the rocket docket process, ma'am?
    Mrs. Kirkpatrick. In the rocket docket, yes.
    Ms. Kordich. Okay. Well, what you had was the initial 
screeners, which was an attorney working overtime. So they 
looked through of course the cases that were not box cases and 
were not more than two issues. They would go through it and 
then they would decide and they would write on the front of it, 
had a sheet on the front of what they thought could be done for 
the case. So then, that was then later distributed the 
following week so that the attorney working overtime to write 
the case got it.
    Mrs. Kirkpatrick. But to a different person? A different 
attorney?
    Ms. Kordich. Right, a different person entirely. And 
sometimes that person who got it did not see eye to eye with 
the first one who actually screened the case. So sometimes it 
had to go back down because it was not going to be a grant, or 
it was not going to be a remand. It would have been a grant or 
a denial. So----
    Mrs. Kirkpatrick. Just to be clear, so then it goes back to 
the original attorney?
    Ms. Kordich. Well no, it goes back to case storage.
    Mrs. Kirkpatrick. To case storage? Okay.
    Ms. Kordich. Right. Because the screening was, the 
screening was not proper so it would go back to be distributed 
later.
    Mrs. Kirkpatrick. Do you think there is adequate training 
for the people who are doing this, this type of work?
    Ms. Kordich. I think there was adequate training. I do not 
think there was an adequate enough time for them to go through 
each case. And I do not, and my main problem was that box cases 
or more than two issues cases were just left languishing and we 
were getting the easy cases out instead, or screening the easy 
cases instead.
    Mrs. Kirkpatrick. When the box cases are brought out of the 
box, do they get a new docket number? Or do they continue with 
the same docket number?
    Ms. Kordich. No, no. What a box case is is so many volumes 
of one case, so much evidence in one case, the volumes are just 
placed in a box. It is sort of like a, like reams of paper in a 
box that you have for the Xerox machine. And that is the type 
of box it is. Sometimes you have two boxes, or more than two. 
But usually it is a box and it has volumes in it. A regular 
case, that we call a regular case, would be one or two volumes 
I would say probably, six inches high.
    Mrs. Kirkpatrick. And this committee are very concerned 
about the VA's system and use of technology. Do you think that 
the technology is adequate?
    Ms. Kordich. In your opening statement you were talking 
about the VBMS.
    Mrs. Kirkpatrick. Yes.
    Ms. Kordich. And as a GS-15 I have a lot of attorneys 
coming to me in my group. We have a work group. And they come 
to me with many complaints about the VBMS system being down, 
that it freezes up. And sometimes you have hundreds, 500 pieces 
of mail that you have to go through, or evidence that you have 
to go through when you get into the virtual system or the VBMS 
system. And it can take you twice as long to do a VBMS case as 
it does to do a regular paper case because our attorneys are 
trained to look at the paper cases and know exactly what it is 
that they just do not need to look at or that, you know, they 
can come back to later. But in the VBMS you just have to go 
through the system and to the computer and it takes you a lot 
longer, especially with all the glitches that there are. And I 
get a lot of complaints from attorneys that they would rather 
not even have those cases.
    Mrs. Kirkpatrick. And I want to thank you for your courage 
in coming forward. We appreciate that. And we believe that that 
is essentially in actually being better able to serve our 
veterans. I recently introduced the Whistleblower Protection 
Act to protect whistleblowers within the system so that this 
committee can do its job.
    Ms. Kordich. Thank you.
    Mrs. Kirkpatrick. As I said in my opening statement, we 
know what the problem is. Mr. Violante, you addressed that. We 
are looking for solutions. And I want to applaud my colleague 
Beto O'Rourke and Mr. Cook for bringing forward the Express 
Appeals Act. I think that is a step in the right direction. It 
looks to me like the solutions are sort of around four things 
that we could do right away to avoid this crisis. That is get 
better data; look at resources, is resourcing adequate, is 
there enough staff, enough attorneys, enough judges; training, 
is it adequate; and then, you know, launching the pilot 
program. So Mr. Violante, I just wonder if you could comment on 
those four things? Better data, resources, training, the pilot 
program?
    Mr. Violante. I mean, they are obviously all excellent 
points. I would put probably data at the bottom of my list. 
Because, you know, we talk about numbers a lot. But we do not 
talk about the final results. And to me, that is more important 
to a veteran. You know, whether the Board produces 40,000 
appeal decisions or 60,000 appeal decisions, the question is 
are they correct, are they timely? So I would like to see that. 
Certainly training is a big factor. I would also like to 
address the question from the chairman regarding appeals, or 
regarding remands. I worked at the Board for five years in the 
eighties, B.C., before the court. It was a little easier back 
then. We did not have to worry about decisions from above. 
Whatever we said was the law. But a remand should be counted 
because someone is looking through the case and making a 
determination. You are still doing much of the same up front 
work. It is certainly a lot easier to write a remand decision 
than it is to write a regular decision. But again, unless you 
can figure out another way to count that attorney's time I 
think remands have to be counted. Accountability, to make sure 
that these cases are being remanded accurately and could not 
have been allowed at that level. And that I noticed a number of 
remands coming back to the Board over and over again. And 
again, accountability on what the regional offices are doing to 
correct those decisions and correct their errors need to be 
factored into this also.
    Mrs. Kirkpatrick. Thank you so much. I yield back.
    Mr. Coffman. Thank you, Ranking Member Kirkpatrick. Mr. 
Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thanks for your hard 
work and for having this hearing. Ms. Kordich, I would like to 
ask you about one of the practices you referred to that was of 
concern in trying to speed up things but creating problems in 
the process. And that is forcing cases too quickly into the 
hands of judges. Could you elaborate on that a little bit more, 
please?
    Ms. Kordich. Yes, sir. When Secretary Shinseki resigned on 
May 30th, on June 2nd we got an email from case storage that 
said that they would start sending cases up with 2011, June 
2011 and earlier docket numbers automatically. And this was a 
total change in the way we worked our procedure. What happened 
was that I believe that management found out that as soon as 
Secretary Shinseki was gone that there may be some questions as 
to the cases languishing in case storage that had docket 
numbers, so they started sending them up. What the problem was 
is that the judges, what the usual procedure was that they 
would ask us to order cases whenever they needed them so that 
they could manage their own case load. Well, now they are 
coming up whether they want them or not. Now that they have a 
system where if they have too many cases they can say no. But 
at the beginning they were coming up so quickly, they were 
giving them out to the attorneys and the attorneys had 13 or 14 
cases assigned to them. Well, of course they are going to be 
old by the time they start working them because they have such 
a big caseload.
    Mr. Lamborn. So is that something that is no longer an 
issue today?
    Ms. Kordich. It is still an issue. I have----
    Mr. Lamborn. It is still an issue?
    Ms. Kordich. Yes it is, sir. I have, I have judges now that 
say I do not want you to order any more cases. Tell them to 
stop the automatic deliveries for this week and next week.
    Mr. Lamborn. So they are not really ready? They are not 
really ripe for a decision?
    Ms. Kordich. They are ripe for a decision. But the judge 
now cannot manage their own caseload so they just keep coming 
at breakneck speed. And they have to keep giving them out, 
which bogs down the attorneys. And then it takes them a while 
to get the cases done. What they usually did was they came up 
gradually, of course in docket order, and but then when the 
Secretary resigned then they were afraid that there would be 
too many old cases in case storage that were languishing 
because they were cherry-picked like they were for the rocket 
docket. So you had the box cases, the more than three issue 
cases coming up because they were old.
    Mr. Lamborn. Okay. And on the rocket docket it sounds like 
it was well intended, a good idea, but there were unintended 
consequences. Is that how you would characterize it?
    Ms. Kordich. Well, I would characterize it as we needed to 
get 55,170 cases out and this was a good way to do it. And we 
are going to do it quickly because we do not want to be looking 
at the box cases and the cases that are more than three issues. 
So we will just cherry-pick. And then that is when there became 
disarray in the case storage because then you had old cases 
that were down there, cases that had been cherry-picked that 
were old, that were coming up but they were newer. Also, I 
would like to say that not a part of the rocket docket but 
however cases that were taken out of docket order, say 2013 
cases that should not have been taken up, were training cases 
for attorneys. So when new attorneys start they get simpler 
cases of course to train. But those cases were coming up 
unchecked because a lot of them were not, were out of docket 
order. So many of those cases were coming up for trainees that 
should not have been coming up.
    Mr. Lamborn. Okay. Thank you for our testimony, and for all 
of you for being here today. Mr. Chairman, I yield back.
    Mr. Coffman. Thank you, Mr. Lamborn. Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Violante, could 
you, you expressed in your opening remarks strong support for 
the rocket docket program. Could you elaborate a little more 
about why?
    Mr. Violante. Yes. I mean, in our mind it is a triage 
program. Now how it was implemented raises some questions. But 
I think the concept of finding those cases that you cannot 
decide because there is additional development that needs to be 
done, or something missing from the claims file, finding those 
early on and sending them back to have that work done 
definitely is a way to look at these cases and get them done 
quicker. And when those cases came back with the information 
these veterans I believe got a faster decision.
    Mr. Takano. I do not know if this is the same 
administrative procedure that got put in place. But I remember 
the health claims, the ratings that were, needed to applied in 
Los Angeles, some revisions in procedure allowed certain parts 
of a claim to be decided faster so they would not have to 
decide the whole claim all at once. I think that was a separate 
sort of claim, not a BVA claim. But the idea was triage, and we 
could, I mean, you can negatively maybe characterize it as 
cherry-picking. But on the other side of it it was looking to, 
you know, accelerate those claims that were simpler to 
adjudicate and get it done faster. I mean, that is what I hear 
you saying.
    Mr. Violante. Right. I mean, again, the concept I think is 
triage. How it was implemented may be something different. But, 
you know, to identify those cases early on and get that 
development done I think is a definite way to go.
    Mr. Takano. Ms. Kordich, would you, do you want to see 
rocket docket eliminated? Or do you think we need to, is there 
some accommodation? I mean, do you subscribe to the idea that 
there are some cases that we could move faster? Or does 
everything have to go in docket order, as you----
    Ms. Kordich. No. I think, no sir, I think the screening 
process needs to be better. I mean, maybe you can give them 20 
minutes, the attorneys working overtime to look at a bigger 
case or but I do not think veterans should be ignored just 
because they have bigger cases. I also would like to point out 
that about a hundred cases were actually granted, which is in 
violation of 7107(f) because there are no exemptions to grant 
cases. They are only to be developed. So there a hundred cases 
that were actually granted out of docket order.
    Mr. Takano. Is there a way for us to do you think, you 
know, move the simpler cases, you know, much faster even if 
they go out of docket order? And concentrate staff time on 
those more complex cases? I mean----
    Ms. Kordich. I mean, I am sure sir you could come up with 
a, I think the main concern, the main motive of the management 
was just to get cases out.
    Mr. Takano. Just to get cases out?
    Ms. Kordich. Right. I mean, I am sure that someone could 
sit down and think about, I do not think it is that difficult 
to figure out, you know, a screening process where we could, I 
know it is not a perfect system. You cannot do everything in 
precise docket order. But this was more of languishing cases 
and then once June 1st came around then there was a scramble to 
get these cases out just in case.
    Mr. Takano. In your testimony you highlighted the poor 
morale at the Board. And do you think, what do you think could 
be done to make the Board a better employer?
    Ms. Kordich. The Board has had a problem with a culture of 
fear and intimidation for a long time. Attorneys are afraid to 
express their views. And it is always met by swift retaliation 
if they just make a benign comment. When the Vice Chairman 
initiated the 55,170 there was a poster contest. And then 
people, to promote the 55,170, and I believe that you have 
that, some of those posters as evidence. And Board attorneys 
were angry at management for such a cavalier attitude because 
they actually do the work. There is no production requirement 
in the front office for attorneys there. So what happens is it 
was met by anger and some gag posters. And when the gag posters 
came out the Vice Chairman sent an email apparently insinuating 
that the creator of the poster was anti-veteran.
    Mr. Takano. Oh dear. Do you think that the Board is under-
resource? Do you think that the problem is understaffing, or is 
it just strictly kind of a management style?
    Ms. Kordich. I think it is management. I think we have more 
than enough staff.
    Mr. Takano. Okay. Mr. Chairman, I yield back.
    Mr. Coffman. Thank you. Ms. Walorski?
    Mrs. Walorski. Thank you, Mr. Chairman. And I just wanted 
to echo my agreement with the chairman's opening remarks and 
the ranking member's, that I hope as well that we have not gone 
from major health crisis in the VA to a major appeals process 
as well. And I appreciate the testimony as well from our VSO 
organizations that are always supportive of veterans, and I 
appreciate you coming forward Ms. Kordich. I cannot imagine, 
with what this whole committee has been through with the VA for 
the last several months, and I am new. Some of these guys have 
been at this for years. But I guess my first question is for 
you, Ms. Kordich. Have you seen any change in even the attitude 
and behavior with the departure of the Secretary Shinseki and 
the new Secretary come on? Has there been kind of a, is there a 
sigh of relief that maybe there is help coming? Is there just 
the same old, same old as this continues to roll along?
    Ms. Kordich. I think at first Board attorneys were 
optimistic.
    Mrs. Walorski. Yes.
    Ms. Kordich. However, there still seems to be no emphasis 
on protecting those who want to speak out. It is sort of 
business as usual.
    Mrs. Walorski. So whistleblowers do not feel like they have 
additional protection today that they may not have had a couple 
of months ago?
    Ms. Kordich. Oh, no. No, not at all. Not at all. It is the 
same continuous. Like I mentioned earlier, Board management 
uses the I CARE standards or values as a weapon against 
employees.
    Mrs. Walorski. Yes.
    Ms. Kordich. And, although they do not follow them 
themselves.
    Mrs. Walorski. I am almost afraid to ask this question. But 
are there any performance bonuses attached to anything in the 
front office about any of these numbers and cases and rocket 
docket, and who gets this and who gets that? Are there 
performance bonuses attached to how many cases are filed, 
adjudicated, anything like that? Are there performance bonuses 
in the structure?
    Ms. Kordich. Yes, there are. And in December there are 
performance bonuses. I mentioned in my testimony that in May of 
2012 there were cases held an appalling amount of time by Board 
management and then they started switching them around so that 
they would not get caught. Those individuals all received the 
bonuses. Some of the cases were held for a processing time of 
606 days.
    Mrs. Walorski. Oh, my goodness.
    Ms. Kordich. When it was only, when it was a grant so that 
the veteran could have gotten their benefits earlier. But there 
was a, and those employees received bonuses and they were all 
promoted. The Principal Deputy Vice Chairman to Vice Chairman, 
and the rest to judges. And I will add coincidentally none of 
them are veterans.
    Mrs. Walorski. Interesting. From your perspective the VA 
Reform Law that we just passed, that the President signed, that 
in some cases a lot of it does not roll out until October. Do 
you see any hope, and I know you are in the appeal position. We 
just spent a lot of time dealing with the healthcare position. 
But the over, the duplication is there because of how these 
cases are processed. Do you see anything up until this point 
that we have done as a committee that has done anything to 
impact the world of appeals or anything else? Or do you see 
that we, that the only hope is urgent legislation out of here 
that will start combating the appeals process?
    Ms. Kordich. I think the latter.
    Mrs. Walorski. Urgent----
    Ms. Kordich. Yes, ma'am.
    Mrs. Walorski. Do you think the general attitude in the VA, 
with as much attention at this conference, and the nation, the 
American people are at the table. You know, from New York to 
California, the American people want our veterans to have every 
single thing they deserve, as do we. Do you think that the 
pressure from the American people helped turn the attitudes 
inside of just the general VA as you know it? Not so much that, 
you know, Congress did X, but just the American people, their 
ears are on. They care and they are fighting for veterans. Do 
you see that as being, having helped in the healthcare arena, 
and something that we could carry over into the appeals arena?
    Ms. Kordich. I think so. I think people were not, with us 
we are such a small----
    Mrs. Walorski. Yes.
    Ms. Kordich [continuing]. Area that, and that is why this 
has been able to go on because nobody really paid attention to 
what was going on.
    Mrs. Walorski. Yes. Okay.
    Ms. Kordich. Until this hearing. And then I think 
management was quite shocked. However, I do think that people 
are now, the American public are now focused on, well, what is 
going on with other departments?
    Mrs. Walorski. Yes.
    Ms. Kordich. And I think it is good that this committee has 
looked into the VHA and the VBA as well.
    Mrs. Walorski. I appreciate it. Thank you so much for your 
testimony, all of you. And I yield back the balance of my time, 
Mr. Chairman.
    Mr. Coffman. Thank you. Mr. O'Rourke.
    Mr. O'Rourke. . Thank you, Mr. Chair. Thank you for raising 
the profile of this issue, you along with the ranking member, 
ensuring that this does not go unnoticed. And I want to thank 
our panelists for helping to shed some additional light on this 
and for all the work that you are doing, including just 
informing us that we can make better policy decisions and hold 
the VA accountable for its actions.
    You know, just anecdotally, you know, we had been so 
focused when it came to VBA issues on first time service-
connection disability claims and the long wait times we were 
seeing out of Waco, which serves El Paso, up to 470 days last 
year for an average wait time out of El Paso, that I do not 
think we realized the crisis that was developing in the appeals 
process. And I was at a town hall earlier this year and a 
veteran stood up and he said, hey, great work on this first 
time disability claim issue. But I have had an appeal that has 
not been touched for two years. You mentioned 400 days earlier. 
You know, two years. And what are you all going to do about it? 
We had Mr. Jason Ware, who is second in command at Waco there 
visiting El Paso. And I thought it was telling that he could 
give us no information on the appeals backlog, where we stood, 
the average wait time. You know, I will get back to you. We 
just had a meeting with him this Saturday at a town hall and he 
was able to give us more of an update. But even within the VA I 
do not think that there was acknowledgment that they had a 
problem. So really appreciate it.
    Several have mentioned, including Mr. Violante, the bill 
that we worked on with Mr. Cook, that you all worked on with 
us. And I want to thank you for that, the Express Appeals Act. 
Especially the veteran sacrifices his or her ability to add 
additional information to the appeal and in return there is an 
expedited process to adjudicate that appeal. A kind of a trade 
off like you have with the fully developed claim for first time 
claimants. And certainly, I know I speak for Mr. Cook, we stand 
ready to make improvements to this bill. And we also have no 
pride of ownership. If there is a better way to get this 
introduced and heard and on the floor of the House, we stand 
ready. I know I had a chance to talk to Mr. Augustine yesterday 
and he was very kind to call me again today to provide an 
update and suggested that it might make sense to get together 
with the leadership from all the VSOs to talk about either how 
we improve this or do something different. I would love to hear 
from Mr. Hearn and Mr. Violante any suggestions on what we 
would do differently or better than what already exists in the 
bill offered by myself and Mr. Cook.
    Mr. Violante. Well the one thing we would like to see is a 
pilot program because we want to be able to look at it after 
three years, two, three years, and see is it working properly? 
Is it working the way we had anticipated? Again, our, you know, 
design is that a veteran have the ultimate right. In other 
words, if you choose to go this route you are choosing to go 
this route because you do not have any additional evidence, you 
want to get a quick decision. But at some point in time if you 
realize that there is additional evidence out there we want 
that veteran to have the ability to pull out of that fully 
developed appeals process and go back to the normal, 
traditional process. So those are just a couple of the things 
that we are looking at. I am trying to remember----
    Mr. O'Rourke. Well let us continue to talk. Because our 
bill, as I understand it, is a pilot program and provides for 
this express appeals option as a pilot, to make sure that we 
test the concept. But if there is a better way to do it, again, 
I stand open. Mr. Hearn, I do not know if you have any 
suggestions on how we improve this?
    Mr. Hearn. The American Legion is obviously very interested 
in trying to find the most expeditious way of getting these 
appeals handled. The number of days that it goes in the 
process, and has been alluded to today with the remands it is 
obviously a major issue that is just continuing to expand. I 
spoke with Verna. She is doing a Veterans Crisis Command 
Center, and I know you are quite familiar with that. And so 
she, what she wanted to express, I was speaking to her this 
morning, she said that she would love to be able to sit down 
and talk with you all next week and try to hash out some 
things. And she has her own ideas as well. But she definitely 
wanted me to convey that to you this afternoon.
    Mr. O'Rourke. Thank you. And again, appreciate what all of 
you are doing. As I yield back I would be remiss if I did not 
acknowledge the fact that we are once again at War in Iraq. You 
know, it may not be formally declared but we have 
servicemembers flying missions over there, we have boots on the 
ground in that country. I believe we are going to formalize 
that War to include Syria from the President's announcement 
tonight. And it is possible that the Congress will be asked to 
vote on an authorization for use of military force. I just hope 
that for my colleagues that weighs in the balance as we make 
decisions about sending servicemembers into combat roles again, 
given what we are hearing today and our inability to solve some 
very basic problems with how we treat veterans when they return 
from the battlefield. So again, appreciate your service and 
what you do out of uniform for veterans everyday. And I yield 
back to the chair.
    Mr. Coffman. Thank you, Mr. O'Rourke. Mr. Huelskamp.
    Dr. Huelskamp. Thank you, Mr. Chairman. Thank you for 
calling this hearing and giving us an opportunity to learn some 
more about this situation. Ms. Kordich, I hope I pronounced 
that correctly, if I might have a few questions of you. And I 
am trying to read through your testimony. A lot of information 
there, and you are trying to get to the bottom of that. Just up 
front, I want to know since it was known that you were going to 
appear here or became outspoken about your concerns about what 
you saw occurring in the workplace, can you identify any 
intimidation or retribution against you personally from 
management or other employees?
    Ms. Kordich. Not yet from this hearing. I do expect it 
because Board management, they cannot manage very well but they 
can retaliate against employees very well. And I had filed an 
EEO complaint and I have been retaliated against for that. So--
--
    Dr. Huelskamp. Okay.
    Ms. Kordich [continuing]. It is a continuing thing, yes.
    Dr. Huelskamp. Okay. Who set the production goal at 55,170?
    Ms. Kordich. Who set that, sir?
    Dr. Huelskamp. Yes.
    Ms. Kordich. I think the Vice Chairman met with Secretary 
Shinseki and they came up with that number.
    Dr. Huelskamp. Yes, I will ask them how they figured out 
that very exact figure. Do you know how many outstanding 
appeals are awaiting, our veterans are waiting for action by 
the Board?
    Ms. Kordich. I do not, sir.
    Dr. Huelskamp. Okay. Okay. A couple of very specific things 
in there. You did note that there are a number of veterans that 
the decisions essentially, if I read correctly, were made and 
were simply awaiting signature of a judge or an acting judge. 
Could you describe that a little more? It sounds----
    Ms. Kordich. Yes, sir. Back, that was in May of 2012. 
Management, and if you are, for example I am a GS-15. I can do 
acting work. So I can sign cases. And then I also write cases 
for judges as well, or acting judges as well. And when I was in 
the front office I wrote some cases for the Chief Counsel for 
Operations, Mr. Hachey. And what we can do is we can access 
what is called an old cases, we call it an old cases, it is in 
our system, it is called VACOLS. And it shows when a case has 
been held 30 days or more. And so I was wanting to know if my 
case was being signed by Mr. Hachey so I was looking in there. 
And once you look into the system you can also take the number 
from the system and look to see where the case has been. For 
example, like a tracker. So there was one particular case I was 
looking at and it was a case that I believe that you have, the 
committee has, the veteran's name that begins with a C. And I 
was given the case by Mr. Hachey to write on April 6, 2012, or 
2011, I am sorry. And I checked it into myself. I wrote and 
submitted the case for Mr. Hachey's signature on April 15, 
2011. On September 15, 2011, Mr. Hachey charged the case back 
to me while I was traveling on Board business. When I returned, 
I completed the corrections and resubmitted the case back to 
him on September 20, 2011. On June 8, 2012, 262 days later, he 
signed the case, which was a simple remand for a VA 
examination.
    Dr. Huelskamp. Yes, okay. Wow, I guess I will have follow-
up questions with the others as well. You do also mention a 
couple of other issues. Page 10 of your testimony you talk 
about minutes of a meeting on June, or you talk about a June 
4th meeting with Ms. Eskenazi. And do you, were you at that 
meeting?
    Ms. Kordich. The June 4th?
    Dr. Huelskamp. Of 2014?
    Ms. Kordich. Yes, sir.
    Dr. Huelskamp. Okay. Do you know if there are minutes of 
that meeting, or, and----
    Ms. Kordich. I am not sure.
    Dr. Huelskamp. Okay.
    Ms. Kordich. I am not sure if minutes were taken of that 
meeting. Was that the June 4th meeting of the, concerning the--
--
    Dr. Huelskamp. It concerned about Congress.
    Ms. Kordich. That was a couple of meetings, actually, but 
that was the first time she brought it up. I was not in that 
meeting, sir. I was in a second after that.
    Dr. Huelskamp. Okay. Okay. And then the last question in 
particular that you do note in your testimony that one employee 
notified the VA Inspector General of the problems but was never 
contacted by the IG. Can you describe that a little bit more, 
what you know about that situation?
    Ms. Kordich. Yes. He personally told me that he contacted 
the IG about the rocket docket program, not so much the program 
itself but what I have been discussing that the cases were 
taken out of docket order, the easy ones, and that ones that 
were not box cases, and he never received a response.
    Dr. Huelskamp. Do you know how he contacted them? I mean, 
left a message, sent an email, do you know?
    Ms. Kordich. I am not sure. I think he actually personally 
went there.
    Dr. Huelskamp. Yes that is----
    Ms. Kordich. But I will have to get back to you on that.
    Dr. Huelskamp. Okay. Well the information on that is pretty 
troubling, especially with some of the recent reports of the IG 
not being as independent as we presumed they are. They are 
supposed to be under the statute. So I appreciate your courage, 
your commitment to our veterans. And we are trying to improve 
this process so I really appreciate your testimony. I yield 
back, Mr. Chairman.
    Mr. Coffman. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman. And thank all of you for 
being here once again. I associate myself with once again Mr. 
O'Rourke and his wise counsel, that we certainly are going to 
see the added, I think most of us understand, we hope for the 
best, pray for the best, but plan for the worst. This idea that 
surges in cases cause some of these problems however I think is 
pretty ludicrous. And I would go, Joe, and first ask you. You 
have been through this a lot. You have seen both sides of it. 
You are at a unique perspective on this. Is this just deep 
cultural change? I mean, can we break some of this by attacking 
that? Or does it need to be fundamental change in way we are 
doing these?
    Mr. Violante. I think we need accountability. I mean, as 
you said I can go back, you know, to the late eighties, when 
Congress was debating whether or not to put a court in place. 
And I can remember the Chairman of the Board, then Chairman of 
the Board going across the street to meet with Secretary 
Dewinski and coming back with different orders each time. Put 
out more cases, put out more allowances, just put out more 
cases in general so people know what we are doing. I also 
observed at that time before I was leaving to go to DAV that 
they went around and collected cases for signatures by two 
Board members. And at that time, it was a Board. There were 
usually three members. In the medical side it was two attorneys 
and a doctor, and on the legal side three attorneys. So I mean, 
this has gone on. It is terrible. But if you do not have 
accountability and if you only focus on the numbers, that is 
what you are going to get, is this type of behavior.
    Mr. Walz. So I, and I think, I note this because this is, 
the folks who have been involved with this, you have been 
talking to me about this for a decade that this was an issue. 
It came to, and I am very appreciative, Ms. Kordich, that you 
would come forward. My question to you is what is your, what is 
your formal process when you noticed that there was problems? 
What was your formal and informal process to improve the 
process for our veterans? And how were those received? Like if 
you saw some of this happening formally where are you supposed 
to go?
    Ms. Kordich. Well I would talk to my supervisor, who is the 
Chief Judge. However, they tend not to want to do anything that 
is not sanctioned by the front office or the Chairman's office. 
So their hands are tied because they are afraid. I mean, if you 
try to change something or if you try speak out no one wants to 
hear it.
    Mr. Walz. Who is the person or who are the people 
instilling this fear? Who, I want, you know, because I said, 
and we are not going to do it right here. But as Joe is saying 
on this, there needs to be a name and a face and an 
accountability. And if that is what is holding this up, and we 
are, and I think some of these are great ideas which I am very 
supportive of. But I think we can put in, you know, fully 
developed appeal. But if we have got somebody sitting in that 
position that is going to be the gatekeeper and is going to 
hold things, it is still a problem. Who are they? And they 
just, they sit in these positions?
    Ms. Kordich. Well we have the Vice Chair. But we do not 
have a Chairman right now. It has been vacant for almost three 
years now.
    Mr. Walz. Right.
    Ms. Kordich. But we do have a Vice Chairman, Ms. Eskenazi. 
And her, she was a protegee of the former Vice Chairman who was 
about, it was the same, business as usual. So of course she was 
the protegee so----
    Mr. Walz. Why do we not have a Chairman?
    Ms. Kordich. I have no idea, sir.
    Mr. Walz. That is a question for us to ask, by the way. So, 
and answer. And answer. So you do not have that. That is closed 
off to you. Is doing, is coming in this regard, and again I am 
incredibly grateful for it but I am just sorry you were ever 
put in this position. Because I know from a professional and a 
personal standpoint this is the last thing you want to have to 
do. You just wish there was a process to fix it.
    Ms. Kordich. Sir, I do.
    Mr. Walz. Is this your only informal route?
    Ms. Kordich. Yes, sir.
    Mr. Walz. Is to come this direction?
    Ms. Kordich. Yes, sir. Because like I said earlier I have 
filed an EEO complaint which no one wants to hear. I have been 
retaliated against. I have a little small office. And, with no 
window. And across----
    Mr. Walz. Is that how it is done? It is just done with 
pettiness and marginalizes you?
    Ms. Kordich. Yes. Exactly. And across the hall from me 
there has been two window offices vacant for two years but they 
would never move me into that.
    Mr. Walz. Well I think this is the thing, and we have heard 
it before, I mean it is hard to fathom that this kind of stuff 
happens or the pettiness that goes on. But all of us in this 
room know the veteran pays for it. You are certainly paying for 
it, and for that I am deeply sorry. But the veterans are also 
paying for it and they had nothing to do with it. So I would 
encourage all of us, I thank the chairman and the ranking 
member, thank you for the hearing. The followup on this, again, 
it is one thing to talk about accountability. There is a name 
and a face and somebody is getting a paycheck that is doing 
this. Those are the people we need, those are the people I want 
to sit right here. I yield back.
    Mr. Coffman. Thank you, Mr. Walz. It is my understanding 
that there is a Director nominee whose confirmation is pending 
before the United States Senate. I think it has been a couple 
of years that that has been the case and it has yet to be acted 
upon. Dr. Roe?
    Dr. Roe. Thank you, Mr. Chairman. And to follow up with Mr. 
Walz, what we hear when we go home from veterans, they do not 
know about boxes and all, they do not know what that is. I do 
not even know what that all is until you explained it to me a 
minute ago. All they know is I am losing my home, I cannot pay 
my bills, my kid is in college, I have no way to take care of 
my family, and we are talking about boxes and people will not 
sign anything.
    Let me give you a little accountability. We had doctors 
where I practiced who would not sign their charts. You know, 
your discharge summaries and your surgical notes. It was pretty 
simple. If you did not sign them, sign those charts, you could 
not schedule any more cases for surgery. Well if you cannot 
schedule any more cases for surgery you cannot make a living if 
you are a surgeon like I was. So guess what? You did your 
charts. There should be some accountability somewhere. When I 
heard 200-and-something days, and all it is waiting on is a 
signature? That is ridiculous. And I heard you say, and we 
heard this through numbing hours of testimony this year with 
the VA, is that it is not a money issue. When I first came on 
here, Mr. Walz came two years before I did, $100 billion a year 
we were spending on the VA. Now it is going to be a $160 
billion that we are spending. The number of veterans from 2000 
until now has gone from 26 million of us down to 21.8 million 
and going down. We did not increase the number of veterans 
treated by the VA but by 17 percent. And yet we have had this 
enormous increase in the budget. So I mean I have to almost 
laugh when I heard a quick decision by the VA, that is an 
oxymoron by the way, a quick decision. And veterans do not know 
about rocket dockets and other, they do not care about that, I 
do not care about that. I just want a veteran whose claim is 
waiting on it, and this August break we went on, clearly I 
heard it over and over again. Dr. Roe, when is my claim going 
to get, so I am checking into them now. Why has it not been 
adjudicated? Why have I not heard about it? And you know, we 
have got, I have got one full-time staff member at home that is 
working on it and I am about to have to add some more just to 
take care of this. And this backlog is still there. It has not 
been stopped. And I guess the question I have if you were the 
czar, what would you do to fix this? If you could, if you 
could, if you were the boss what would you do to fix this 
problem? And I realize that there are claims that do not come 
fully prepared. That I understand, and where more information 
comes available. But if you could start tomorrow in fixing this 
problem, what would the few things be so this committee will 
know which direction to go?
    Ms. Kordich. I think I would appreciate the attorneys that 
do the work better and not force them to work unpaid overtime 
so that they can take vacation. They are the workhorses and 
they need to be appreciated. The front office does not seem to 
understand that. And----
    Dr. Roe. Are you saying then it is leadership?
    Ms. Kordich. Yes sir. Definitely.
    Dr. Roe. Not the worker bees?
    Ms. Kordich. Not the worker bees at all because they have a 
production goal, they do it. They are not going to let a case 
sit for 606 days, or 200-and-some. Because they need the credit 
for that case and so do the judges. So they sign the cases. Up 
in management there is no production so it is a, they----
    Dr. Roe. What would be the reason for a veteran to, I mean 
here is a veteran, I see them all the time, sitting at home and 
I have got to go back and tell them that your chart just sat on 
somebody's desk for 200 days waiting for a signature. Did I 
hear that wrong?
    Ms. Kordich. Yes, sir. Or, and sometimes 606 days in 
processing.
    Dr. Roe. So I have got to go home and look at, I just got 
back from Vietnam not long ago, look at one of my colleagues 
that served in Vietnam, and walked through the mud, and did 
that for our country, and they are waiting on somebody to take 
their--excuse me, I almost said something bad. Their pen and 
sign a chart? Has that happened?
    Ms. Kordich. To review a case that is probably only a 
remand or a grant of benefits. And to review it and sign it, 
which does not take 200 days or 606 days.
    Dr. Roe. It is hard to make a politician speechless, but I 
am speechless with that. I yield back.
    Mr. Coffman. All right. Thank you, Dr. Roe. Our thanks to 
Ms. Kordich, Mr. Hearn, and Mr. Violante. You are now excused.
    Ms. Kordich. Thank you.
    Mr. Coffman. All right. I now invite the second panel to 
the witness table. Our second panel we will hear from Ms. 
Eskenazi, Executive in Charge, Board of Veterans' Appeals.
    I would ask for the witness to stand and raise your right 
hand.
    [Witness sworn.]
    Mr. Coffman. Please be seated. Ms. Eskenazi, your complete 
written statement will be made part of the hearing record and 
you are now recognized for five minutes.

 TESTIMONY OF MS. LAURA ESKENAZI, EXECUTIVE IN CHARGE AND VICE 
   CHAIRMAN, BOARD OF VETERANS' APPEALS, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; ACCOMPANIED BY MR. JAMES RIDGEWAY, CHIEF 
 COUNSEL FOR POLICY AND PROCEDURE, BOARD OF VETERANS' APPEALS, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

                TESTIMONY OF MS. LAURA ESKENAZI

    Ms. Eskenazi. Thank you, Chairman. I first would like to 
thank the prior panel, including Ms. Kordich, for the courage 
to come forward and share her concerns.
    Good afternoon, Chairman Coffman, Ranking Member 
Kirkpatrick, and subcommittee members. Thank you for inviting 
me to discuss the Board of Veterans' Appeals' commitment to 
providing all veterans with the timely quality appeals 
decisions they deserve while ensuring integrity in the data we 
utilize to measure our workload.
    As Secretary McDonald has stated this is a critical time 
for VA and we have a great deal of hard work to do to resolve 
the challenges we face and to rebuild trust. I am here 
representing the hardworking, dedicated employees of the Board, 
many of whom are veterans or family members of veterans. We are 
all committed to overcoming challenges to better serve our 
nation's veterans.
    The Board's mission has remained unchanged since it was 
established in 1933. That is to conduct hearings and adjudicate 
appeals in a timely manner. The Board's employees come to work 
each day with a strong commitment to this mission guided by one 
principle in VA's strategic plan. VA is a customer service 
organization. This principle has been the motivating factor in 
every decision I have made in my 14 months as Vice Chairman and 
Executive in Charge. Simply put, veterans always come first.
    Having said that I welcome this opportunity to take a hard 
look at how we do our work and measure performance. We can 
always do better. I have great respect for the oversight role 
of this committee. As a steward of public trust I will continue 
to explore ways to better serve veterans through the highest 
standards of honesty and integrity. During my 14 months as 
Executive in Charge the Board underwent tremendous change. We 
hired and trained nearly 200 new staff growing the Board to 
approximately 680 employees thanks to the generous funding 
provided by Congress. This has allowed us to serve the most 
veterans ever in a fiscal year since the advent of judicial 
review. I have taken numerous steps to improve organizational 
climate at the Board by greatly expanding opportunities for 
employee engagement, communication, and feedback.
    The multilayered veterans appeal process is unique across 
federal and judicial systems with a continuous open record. As 
a result appeals often involve many cycles of development and 
readjudication this unique process provides the veteran with 
many opportunities to have a voice in seeking the benefits that 
they deserve.
    The appeals process is heavily set in law, a body of law 
that has been built up over 80 years. This law requires that 
the Board consider and decide appeals in docket order with 
limited exceptions. Since 1994 docket order is determined by 
the date that the appeal is formalized at one of VA's regional 
offices rather than the date the appeal is received at the 
Board. This creates a docket with a priority order that changes 
constantly, daily. The docket also contains workflow 
limitations for cases in which a hearing was held as the law 
requires that those cases can only be decided by the judge who 
held the hearing. Additionally, cases that are remanded retain 
their prior place in line if they return to the Board thereby 
increasing wait times for newer appeals.
    This year the Board piloted a limited program to save wait 
time for veterans using congressional authority to prescreen 
cases out of docket order to assess the adequacy of the record. 
A very small number of appeals were processed through this 
program which was paused in early June to assess the 
efficiencies to veterans and to consider feedback from 
stakeholders. To date, the Board has issued dispositions for 
waiting veterans in over 51,000 appeals, a dramatic increase 
over last thanks to the efficiencies put in place at the Board 
and the generous funding provided by Congress. The Board has 
also increased its quality rate to 94 percent using a weighted 
formula that was created in collaboration with the Government 
Accountability Office in 2002 and 2005.
    Although the Board primarily works with paper files the 
number of electronic appeals in VBMS continues to increase. As 
Secretary McDonald has stated technology is an enabler and we 
need to make the most of it. In this spirit the Board has 
embarked on an aggressive plan for appeals modernization in 
which we look at people, process, and improved technology to 
better carry out our mission.
    In conclusion veterans are waiting too long for a final 
decision under current legal framework. We are thankful for the 
work by Congress and other stakeholders, including the veterans 
service organization, to explore long term solutions to provide 
veterans with a timely appeals process they deserve.
    I welcome continued input from all stakeholders on how to 
improve the work of the Board and to reinforce the time honored 
covenant between America and her veterans. I know that we face 
challenges but in times of challenge there are opportunities 
and I continue to reach for the opportunities. Thank you.

    [The prepared statement of Laura Eskenazi appears in the 
Appendix]

    Mr. Coffman. Thank you for your testimony, Ms. Eskenazi. 
According to documentation from your database dated May 10, 
2012 you and attorneys from your office were holding cases for 
review and signature for as long as 400 days. Can you explain 
this?
    Ms. Eskenazi. Yes, I am familiar with that report which is 
dated two and a half years ago. And when I saw that report it 
gleaned that there was a challenge in work processing in my 
office and I took immediate corrective measures to rebalance 
the workload in those offices so that the staff had the right 
amount of time to do the work that was assigned to them. And I 
am happy to report that the measures I put in place exist today 
and we have not been back to that same level of bottleneck.
    Mr. Coffman. From our review of the database record in 
almost every one of these egregious cases where there was a 
notation that a case was in abeyance the amount of time the 
case was in abeyance was no more than 38 days and in many cases 
was 21 days or less. How do you reconcile this with your 
explanation that the cases took so long to process because they 
were in abeyance?
    Ms. Eskenazi. I am not familiar with the abeyance report 
that you have. I will note that abeyance is a legitimate place 
that we have at the Board, a charge, a workload charge, when we 
have to for example contact the veteran about representation 
clarification, ask them about a hearing request. And so in 
those situations we cannot work the appeal. We will put it in 
abeyance until we receive the response from the veteran. So 
that is one example of abeyance.
    Mr. Coffman. Okay. Just if you could drill down again why 
these cases were held so long before you and your staff held 
them back for rewrites?
    Ms. Eskenazi. So you are referring to, again, the 2012, May 
2012? Yes, that was some time ago. And cases first of all are 
not just submitted signed. There is a pretty intensive review 
process by the judge who is authorizing that decision. And what 
you cannot tell from VACOLS reports is what is under any days. 
So you have a charge that shows a number of days, but really 
you have to look at the situation, the facts of the individual 
case, to see was it something particular to that case? Or was 
it just a sign of some workload strain in that particular 
offices? Again, that May, 2012 time frame I took immediate 
corrective action, and we worked through that as soon as that 
came to our attention.
    Mr. Coffman. Yes. Documentation from your office shows that 
it took you 254 days to process one single case. The document 
shows that you received the case to sign in October, 2011 but 
did not sign the case until June, 2012. Can you explain that?
    Ms. Eskenazi. Yes, I am familiar with that specific case 
because again I remember this report from two and a half years 
ago very clearly. That case was unfortunately a case in that it 
was submitted and it had some errors in the draft decision. And 
there were some personnel matters kind of connected with that 
sort of inhibited my ability to swiftly move that case. That 
case since has had a number of different decisions.
    Mr. Coffman. Documentation from your office shows that Mr. 
Hachey, the Chief Counsel for Operations in your office, held a 
case for a total of 397 days before finally signing it, and it 
took a total of 606 days to process a case. Can you explain 
this?
    Ms. Eskenazi. Sure. Again, for those watching we are 
referring to a report from May 2012, over two and a half years 
ago. And Mr. Hachey was doing great work assisting me in 
reorganizing another area of the Board that had some challenges 
and during that timeframe did not have the time that he needed 
to carry out all of his duties. And that has since been 
adjusted. I am very thankful for the funding that Congress has 
provided over the years that has allowed us to equalize 
staffing levels where needed to better ensure workflow.
    Mr. Coffman. Thank you. Ranking Member Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. Ms. Eskenazi, I 
want to ask you what improvements you have seen since May of 
2012, since that report was issued, to now? And then where you 
see yourself going in the near future?
    Ms. Eskenazi. Certainly. Again, back to that same report 
for those watching, that report was reflective of a very small 
part of the Board, an office we call the Appellate Group, which 
functions like the Board's Office of General Counsel. I was 
very concerned when I saw those numbers and I put in place much 
more stringent measures than we had, such as a weekly status 
report. And the staff to this day submit weekly reports that 
not only show the case and the days but a description of the 
status. So that is working very well for that small group of 
that office.
    There has been a number of measures put into place since I 
became Executive in Charge 14 months ago. One of the first 
things that I did is pick apart reports that we have and look 
for what are the oldest cases that we have. We are required by 
law to decide appeals in docket order and that docket changes 
daily. And we want to make sure that no cases go sitting 
unaccounted for a long period of time. So I devised a new 
report that shows every single case in the custody of the Board 
from the day it arrives to the day it leaves. And I look at 
that report regularly, addressing cases with the longest amount 
of days. And I have been successful in driving that number 
down.
    We also have put in a number of efficiencies in the way 
that we do our work product. As our VSO colleagues have 
testified, the appeals process is very, and as I stated, it is 
very heavily set in law. So there is very little change that we 
can do in how we provide our work product but yet there is 
always room for improvement. We looked at our business, 
drafting appellate decisions, and we trained our staff in ways 
to become more efficient in their writing so that they are 
focused, to the point. And we are also very mindful that we are 
writing not only to ensure compliance with the law but we are 
speaking to the veteran, the veteran who has been waiting too 
long to get their final decision. And so better writing is one 
effort that we have put into place. And we also, we set our 
goal, we talked about our goal throughout the year. And that 
kept people's eye on the mark. And I am very proud that, to say 
that my staff to this day has issued 52,000 dispositions for 
waiting veterans, which is more than we had in our inventory 
last summer.
    Mrs. Kirkpatrick. Do you need more attorneys and more 
judges?
    Ms. Eskenazi. This is a process, we have a lot of appeals 
throughout the department. The Board is one part of the 
process. We are kind of the end part after the appeals process 
has been worked through the Veterans Benefits Administration. 
We could always use more resources, and we are very thankful 
for the resources that we have received in the past two years. 
But we realize that it is not simply just a people issue. We 
have to do better in not only our legislative process, and we 
request support from the committee on proposals that we have 
sent forward, and we continue to work with our VSO partners, 
but we also need to look at where we can get a lift out of 
technology. The department has made great strides with VBMS for 
the claims part. And now, as I state in my opening statement, 
is the time to work on appeals. And that is why the Board this 
year launched a concept known as appeals modernization to study 
exactly where we need to go with technology.
    Mrs. Kirkpatrick. What is being done right now in terms of 
the modernization of the appeals process?
    Ms. Eskenazi. Certainly. One of the things that we know we 
need are different features in the VBMS system that are 
specific to appeals. Yet we have a long, long wish list so we 
are working on prioritizing that and synthesizing exactly what 
we need. So that when we get the funding we are looking for 
that we are moving forward in a logical fashion. We also, we 
have heard a lot of discussion today about the Board's tracking 
database, VACOLS. It is an Oracle database that was built in 
the 1990's and we track things by using a Power Builder 
overlay. It is a very antiquated type of technology and we 
really need a workload tracking database that is integrated 
with VBMS so we do not have to rely on manual data entries.
    Mrs. Kirkpatrick. Thank you. I think my time is about to 
run out so I thank you again for appearing before the 
committee, and I yield back.
    Ms. Eskenazi. Thank you.
    Mrs. Coffman. Thank you. Mr. Huelskamp.
    Dr. Huelskamp. Thank you, Mr. Chairman. I appreciate the 
opportunity to ask some questions. I will follow up on some 
questions of the prior panel. First of all, who did pick the 
production goal?
    Ms. Eskenazi. I worked on that goal in conjunction with the 
Office of the Secretary and the Office of Performance 
Management. That goal is based on the simple formula of 90 
decisions per FTE. We started the year with 613 FTE. Multiplied 
by 90 that is 55,170 and very reflective of our level of 
performance in seven fiscal years.
    Dr. Huelskamp. You started this fiscal year with how many 
employees?
    Ms. Eskenazi. 613 FTE.
    Dr. Huelskamp. According to your testimony there was a 30 
percent increase in FTE. Over what time period was that?
    Ms. Eskenazi. We started a hiring surge back in May, 2013 
and since that timeframe we have increased on average of about 
180 to 200 new staff. There has been some attrition in there.
    Dr. Huelskamp. Wow, that is a lot of new staff. And how 
many additional cases were worked roughly by this 30 percent 
increase in FTEs?
    Ms. Eskenazi. And last year our output at the Board was 
41,900 appeals. This year we are on target to reach our goal of 
55,170. It sounds like a bold number. I am very proud of our 
staff to have reached that goal. Yet it is very commensurate 
with our past performance.
    Dr. Huelskamp. One thing we did hear though, that as far as 
the measurement, that was shed on the ability to, about those 
numbers that they are really measuring success when you triple 
measurement of, is that not the case? That you are measuring 
some of these cases, double or triple counting those, and that 
helps achieve that 55,170 goal?
    Ms. Eskenazi. We have measured our outward facing 
performance the same way since 1991 when requirements were put 
in place by Congress, published in our annual report. And we 
measure outcomes from a jurisdictional standpoint commensurate 
with many appellate bodies across the country.
    Dr. Huelskamp. Were you triple counting in 1991 as 
described here?
    Ms. Eskenazi. We count transfer jurisdiction. So appeals 
are in a process where they may come back to the Board, and 
they may be the exact same matter or they may be a different 
matter. And they evolve and we track cases that come in in a 
particular fiscal year and dispositions the same way since 
1991.
    Dr. Huelskamp. Okay. The question I would have, I am 
looking at a report from your Board dated September 4th. One 
particular Judge Trueba has 24 cases that have been awaiting 
assignment for more than 99 days, awaiting assignment. Can you 
describe what is occurring and explain that?
    Ms. Eskenazi. Certainly. We have a large number of cases in 
our possession. We put them in our case storage if they are 
paper. We have a lot more cases coming in electronically. And 
we track them in their docket order. They are assigned in 
docket order. And docket changes daily. As I indicate in my 
opening statement, there are certain categories of cases that 
we are very limited in our ability to move around the Board, 
such as case in which a hearing was held by a particular 
individual which is probably the case with Judge Trueba. Those 
cases may only be disposed of by Judge Trueba under the law and 
may not be reassigned to other individuals.
    Dr. Huelskamp. Well as I understood, though, this was 
awaiting assignment, but you believe it is just awaiting the 
judge, maybe just a signature? Is this the case here?
    Ms. Eskenazi. No, no, no. Those would be waiting for--well 
again, I am not familiar with exactly what you have in your 
hand. But cases come to the Board and then they await send-up 
to a judge depending on their place in the docket and depending 
upon if they have to go to a specific individual. Then an 
attorney is assigned the case to draft a tentative decision, 
and then it goes to the reviewing judge who would review it, 
ensure that the decision is in compliance with the law----
    Dr. Huelskamp. Well that is what I am trying to understand. 
This is a report to maybe look at later. But there are, there 
is Larkin, Graham, Crawford, Markey, Clementi, Strawman, Kane, 
they have one, two, or three waiting. And but you have this one 
particular judge with 24 cases that are 100 days or more. I am 
trying to understand. They are still waiting on assignment, as 
I understand that.
    Ms. Eskenazi. Yes and----
    Dr. Huelskamp. So they are just, what does the judge have 
to do to assign the case?
    Ms. Eskenazi. Cases are sent from our storage unit in 
docket order for assignment, and again certain cases can only 
go to certain individuals under the law. I would be happy to 
take a look at the report that you have and provide some more 
explanation. I think that it is indicative of, that is a small 
universe of, we have a large number of cases----
    Dr. Huelskamp. Well for the one, two, three, 24 veterans, 
they do not care about your universe, ma'am.
    Ms. Eskenazi. I understand. I agree with you completely.
    Dr. Huelskamp. But the docket numbers, if you are assigning 
that way then you are not taking them out of order? They are 
not coming as they, they get held up based on the judge?
    Ms. Eskenazi. We get new cases in every day and sometimes--
--
    Dr. Huelskamp. How many outstanding cases do you have then?
    Ms. Eskenazi. We have----
    Dr. Huelskamp. How many veterans?
    Ms. Eskenazi. We have 40,000 cases at the Board, and about 
60,000 that are in our jurisdiction, and 20,000 of them are in 
transit towards us at the Board. And it is a constantly 
changing number. It does not undervalue the fact that we put 
out 52,000 cases so far this year and when I stood before my 
staff last summer we had 47,000 appeals on hand and we have 
already surpassed what we had at that time. The problem is 
there is a lot more in the pipeline coming our way.
    Dr. Huelskamp. So, and Mr. Chairman, I apologize, so if I 
understand correctly what you are saying here is in one year 
you are moving through an entire year's backlog coming? There 
is not an excess beyond a year in terms of the numbers waiting?
    Ms. Eskenazi. And there is a lot more coming, we are aware 
of that.
    Dr. Huelskamp. Coming from where in the system?
    Ms. Eskenazi. Appeals start at the Veterans Benefits 
Administration.
    Dr. Huelskamp. Sure.
    Ms. Eskenazi. And many are resolved at that level. And ones 
that are not resolved at those earlier appeals steps do make 
their way to the Board.
    Dr. Huelskamp. Then one last clarification, Mr. Chairman. 
The time period we are talking about, the wait, that starts 
when it first gets to the, your Board? Or when it started at 
the prior?
    Ms. Eskenazi. An appeal is, an appeal begins when a veteran 
disagrees with the decision----
    Dr. Huelskamp. When does the count start?
    Ms. Eskenazi. It depends on what you are looking at. The 
appeal starts when the veteran expresses their disagreement 
with the VBA claims decision. The appeal starts, it goes 
through many different steps. If they still disagree and they 
perfect their appeal by filing a substantive appeal, that 
preserves their place in line for coming to the Board. And that 
is the point that we use to manage our workload.
    Dr. Huelskamp. Okay. Thank you, Mr. Chairman. I appreciate 
that.
    Mr. Coffman. Thank you, Mr. Huelskamp. Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman. Ms. Eskenazi, there 
have been concerns raised with the screening process known as 
rocket docket. What are your thoughts on the pilot program? And 
will VBA be looking to expand the use of this method?
    Ms. Eskenazi. That is a great question. When I first became 
Executive in Charge 14 months ago and we knew that with the 
volume coming our way that doing things the same old way was 
not going to help our veterans. And we thought it was prudent 
to look at every law available to us and make sure that we were 
not underlooking, overlooking a provision. There is a provision 
that Congress enacted in 1994, 38 U.S.C. 7107(f) which permits 
the Board, an exception to docket order to look at cases out of 
docket order to screen them. And if the record is inadequate to 
actually remand it to VBA to get that needed evidence. And if 
the case comes back in theory the case will be ready for a 
judge to actually decide it, rather than having waited all this 
time to then get to a judge only to have to be remanded. This 
law had never been used in my 19 years at the Board and we 
decided to pilot to see if we could save any wait time for 
veterans. We looked at 47,000--I am sorry. 4,700 appeals 
through the period of November and May. And out of those 4,700 
we remanded approximately 1,100 or 1,200 under the rocket 
docket to get that development completed. And I am happy to 
report that 60 of those veterans approximately have had 
benefits granted in full at the appeals management center and 
those cases are out of the inventory now and the benefits are 
in the hands of those veterans.
    One of the constraints with the program is that we found 
that it was challenging to screen an appeal effectively and not 
be simply working the appeal. And so we did look for groups of 
cases that were, had smaller numbers of issues with the view 
that that is something that someone could quickly screen and 
look for an undebatable development. In other words, we are 
looking to see where we can grant benefits. We would like to 
grant them where we can for these veterans. But where something 
is needed we are trying to save wait time. Again, it was a 
pilot for a limited period of time. It affected less than three 
percent of the Board's overall output this year. And I am very 
appreciative of the comments that have come forward in this 
hearing and talking with our stakeholders. We did pause the 
program at the end of May and whether we resume it remains to 
be seen. Right now we are just analyzing----
    Mr. Takano. So they were a very small portion, three 
percent of the entire caseload, and you have paused the 
program. What are your thoughts on the allegations that this 
program was used to manipulate outcomes?
    Ms. Eskenazi. I disagree with that statement because this 
really was an effort to try and save veterans wait time. Our 
veterans are waiting too long to receive the benefits that they 
deserve and to receive appeals decisions. And there is a lot of 
remands in the department today. And we are trying to just be 
as efficient as possible in saving veterans wait time when 
evidence is needed. But again, it was a pilot, very limited in 
scope. And whether we continue it remains to be seen.
    Mr. Takano. Ms. Kordich detailed what she called shifting 
of old languishing cases around in the front office to reset 
the calculation of how many days an appeal may have been in one 
location. How do you respond to this description, and was it 
accurate?
    Ms. Eskenazi. I disagree with that description. Again 
referencing back to a time two and a half years ago under prior 
Acting Chairman Keller's leadership there was some workload 
challenges in May 2012 and some appeals were not moving as fast 
as they should. And it is difficult to tell from that report on 
its own. Yet no veteran should have to wait and that is why we 
are working on ways to address processes in which we can help 
veterans receive the benefits that they deserve in a more 
timely fashion.
    Mr. Takano. Well there have been some, what about the 
organizational climate at the BVA? There have been some harsh 
criticisms expressed here by employees of the Board. Were you 
aware, I mean, can you respond to those criticisms?
    Ms. Eskenazi. Absolutely. I was very, you know, I have 
worked at the Board for quite some time. And there were some 
organizational climate challenges in past years. And that is 
why when I became Executive in Charge one of the first things I 
did is address the issue of organizational climate. And over 
the course of my 14 months I have put a number of measures in 
place. Last fall the Board staff participated in a VA all-
employee survey and we had a 92 percent participation rate in 
that survey. And that was increasing it from the prior year 
when there was only a 12 percent response rate. We were able to 
get meaningful data at how employees think we are doing our 
job. And I did not just get the data and put it in a, you know, 
tuck it away, I immediately met with my management team and I 
have continued to meet with them over the course of the year to 
look at how we were graded and see where we can make 
improvements. I also put together an all-employee survey focus 
group that has been meeting since April. They presented 13 
ideas to management in August and management agreed with every 
single one of the employee drive suggestions. We look forward 
to implementing all of those and we have had a number of other 
focus groups with the judges, an organizational climate group, 
we have provided training, I have done countless things to 
address climate. And I think that we have made improvements but 
we still have work to do.
    Mr. Takano. I thank you, Mr. Chairman.
    Mr. Coffman. Dr. Roe.
    Dr. Roe. I thank the chairman. Do you have a picture of the 
veterans on those cases when they come?
    Ms. Eskenazi. No, we do not.
    Dr. Roe. Maybe you should. And what you are dealing with 
there is a, and let me tell you what I hear at home. What I saw 
here was, and I am not going to call this person's name out 
again, but documentation from your office shows that the Chief 
Counsel of Operations in your office held a case for 397 days 
before finally signing it. It took a total of 606 days to 
process the case. And I guess this is after it got to the 
Board. And you explained, as I understood it when you first 
started your testimony, that this, he was very busy and did not 
have time. That is the lamest excuse I have ever heard in my 
life. And what I hear veterans tell me is that, doc, I think 
they are just hoping I will die. They will not, I do not hear 
anything. And after 600 days I can kind of understand why a 
veteran would feel that way. That is absolutely not an excuse, 
I did not have time to sign a piece of paper to get this 
veteran, and I would like to have that person stand in front of 
that veteran's family, as I have had to do for 30 years, and 
take responsibility for what I do. When I got out of the 
operation room I had to go look that family in the eye and talk 
to them. There is no picture. Nobody were held accountable. 
There are people waiting at home to pay their light bill for 
these cases. These are people we are talking about. And you 
should have to look at that. And somebody who waited two years 
ought to have to go in front of that veteran and their family 
and look them in the eye and say it was me that did that. I am 
the one that created that problem and did not, and I am not 
going to call this person's name out. They are probably a 
really nice person. I probably would like them. But my point is 
is that this has been going on too long. And the veteran starts 
to count on when their piece of paper is, the day they lick the 
stamp and send it out the front door, not the day you get it. 
So it may have been in the pipeline three, four, five years to 
get adjudicated. And I cannot for the life of me understand why 
anything would take that long.
    Ms. Eskenazi. I agree that no veteran should have to wait 
lengthy periods of time to receive their appeals decision.
    Dr. Roe. But they are.
    Ms. Eskenazi. And they, they need to receive not only 
timely appeals decisions but accurate appeals decisions as we 
have heard in the testimony earlier today. And the Board staff 
are very committed to doing that work. We have a process that 
is very densely set in law. And that is why we are really 
looking forward to continuing to work with the VSOs and the 
committees to look at ways that we can offer veterans choices 
and put the decision in the hands of the veteran as to do you 
want to go this route or do you want to go this route to a 
quicker decision?
    Dr. Roe. My time is running out. But you think, this 
particular person got $21,000 in bonuses. And they may have 
deserved them, I do not know. But it would be hard for me to 
look at a veteran if it took 600 days and say, oh, this person 
that worked on your case got a bonus but it took you 600 days 
when you did not have any money, nothing to pay your bills 
with. And I have got, the other thing Dr. Huelskamp was talking 
about this a minute ago. It is a case a person. In other words, 
there is a difference between cases if they are getting counted 
two or three times, or when you tell me 50,000, is that 50,000 
people? Or is that 50,000 times somebody has touched this case 
and done something with it?
    Ms. Eskenazi. That is 50,000 veterans.
    Dr. Roe. So it is, so when you said last year it is 50,000, 
47,000 or whatever the number was, it was a huge number, were 
adjudicated and cleared, those are people? Not just----
    Ms. Eskenazi. Those are people. There are many more issues 
on top of that. Each one of those people may come to the table 
with one, two, three, or more issues.
    Dr. Roe. I certainly understand that. But that is a closed 
case? That is not one where a veteran, like we hear these 
counts of two or three times where these numbers look better, 
but that is an actual veteran?
    Ms. Eskenazi. Again, we have tracked our output the same 
way since 1991. We track dispositions. It is a jurisdictional 
tracking process. And we track whether the matter is allowed, 
denied, or remanded. And we really are focused on serving as 
many veterans as we can in a fiscal year while maintaining high 
quality in that process.
    Dr. Roe. I, look I appreciate that. This is not easy, what 
you are doing. I certainly, I have been to Detroit and looked 
at the central records there for several years, and my 
goodness. I mean, it is mind-boggling how much paper you all 
have to go through. And I know it is a tremendous amount of 
work. But there is a person at the end of that sheet of paper. 
And there is, and I think about these guys and gals that 
crawled around in the mud, and been shot at, and eaten bad 
food, and missed Christmas with their families, and missed 
their children being born serving this country. And many of 
them had horrific injuries. And many of them did not make it 
back. You do not have to worry about them, the ones that did 
not make it back. But it is incumbent on us to serve the ones 
who did make it back. And I want a commitment here today that I 
do not want to be sitting here a year from now and hearing that 
some veteran had 600 days that they had to wait I guess just in 
the time it got to the Board to get this adjudicated. My time 
is expired. I am, thanks for the indulgence. I yield back.
    Mr. Coffman. Thank you, Dr. Roe. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chair. For Ms. Eskenazi, when 
I get a report on outstanding appeals in the Waco VBA Regional 
Office are those appeals within your jurisdiction?
    Ms. Eskenazi. No, they are not.
    Mr. O'Rourke. So when I, so they will say we have so many 
appeals pending, and one of them, they will tell me how many 
are in NOD status, or notice of disagreement, Form 9, and then 
a certain number in remand. Those, when we are talking about 
remanding that is a different number than the one that we are 
talking about?
    Ms. Eskenazi. Correct. That is under the auspices of the 
Under Secretary for Benefits.
    Mr. O'Rourke. Great. Okay. When we were discussing earlier 
with the prior panel the express appeals act, or perhaps some 
other bill that might address overall wait times and for 
veterans who have claims under appeal, anything that you want 
to add to that discussion from your perspective? What we should 
be talking about or thinking about?
    Ms. Eskenazi. Yes. This process is very unique compared to 
any system I have ever seen. It is a, on one hand you can argue 
that this process provides the veterans countless avenues of 
due process and the department is charged with assisting the 
veteran in substantiating his or her claim for benefits. There 
is an open record and we are required at the very last point in 
the appeals process to accept new evidence. And if that 
evidence indicates that a medical condition has changed to get 
an updated examination, which may require sending the case back 
to have an examination undertaken and to have the case then 
readjudicated at that first level before it comes back to the 
Board. That is the one right to review on appeal to the 
Secretary. This is a process that, as I stated, has been built 
up over 80 years. And it is in dire need of taking a hard look 
at the laws that we have in place and looking at what we can 
agree upon in the process by way of improvement to give 
veterans faster yet quality decisions. And the VA has been very 
participatory with, the House hosted a round table back in 
October, we participated in a round table in March before the 
Senate, and we have been meeting regularly with our VSO 
partners.
    There are many different ways to approach this. And what we 
all need to do is keep the focus on why we are here, which is 
the veteran. And we need to be continuing to keep that in the 
forefront so faster still is quality.
    Mr. O'Rourke. Another related question. You made a comment 
earlier, you reminded us that, you know, a lot of this is 
heavily set in law. That was your phrase. And so since you are 
in the business of laws what is your, you said there were 
several recommendations that you had sent to us. Could you 
highlight the critical one that would make the difference that 
would free you from some laws that prohibit you from innovating 
or doing things more quickly?
    Ms. Eskenazi. Certainly. One proposal that we have sent 
forward over a number of years and has had some discussion is a 
proposal to allow the Board to schedule video teleconference 
hearings. Right now we have to wait for veterans to elect a 
video hearing. And we are still sending some of our 65 judges 
around the country, sometimes to Manila, to conduct the face to 
face hearings with our veterans. And certainly that is a 
wonderful opportunity to have that face to face meeting with 
our veteran, to shake the hand, to meet the family, and we love 
that opportunity. At the same time it is resource intensive, it 
is time intensive to send our judges around the country because 
we have hearings represent about 25 percent of our workload and 
we have a lot of other decision work to do. So the video 
teleconference legislation that we have put forward and it has 
had some discussion we really would be very happy to see that 
put into place.
    Mr. O'Rourke. Great. Thank you. I appreciate it.
    Mr. Coffman. Mr. Walz.
    Mr. Walz. Well, thank you for being here, Ms. Eskenazi. I 
appreciate that. And I also appreciate at last some of these 
concrete things that we can do. And this is one we have heard 
for quite some time that I think makes sense in a modern world 
and some things that we can get done, try to get it fixed. You 
listened to the first panel and I get at the heart of this, 
that we know we have got veterans, we have got a legal process 
in there, we want fairness, we want to make sure that the 
claims are correct and all that. But I keep coming back to, 
because of course there is, we cannot separate, I understand 
they are totally different agencies, VHA, and things like that. 
But in the public's mind, what Dr. Roe and others keep coming 
back to, it is about the veterans, it is not about numbers, it 
is not about all that. And understand our position on this. 
When we have whistleblower here, and you disagree with the 
position where it is at, and then you tell me data bout 
satisfaction or whatever, data is the one thing in this 
committee we are very, very skeptical of. Because they were 
meeting their goals in Phoenix too prior to everything 
happening. So my question is how beyond what you said of people 
coming and the satisfaction rating, how do you break this down? 
Or is this an outlier? Is this someone who is an outlier in the 
case? Or how do you respond to that? Because those are pretty 
damning comments that somebody is sitting there not caring and 
shutting down the folks, the attorneys that are trying to get 
this done.
    Ms. Eskenazi. Absolutely. And that is not something that 
just turns overnight. I think cultural change takes quite a bit 
of time and a lot of work. I think that we have put a lot of 
great things in place at the Board during my 14 months as 
Executive in Charge. But clearly we are not there yet. Our 
Secretary is very committed to hearing constructive criticism, 
as am I, from all stakeholders. Ultimately we need to get it 
right for the veteran and we need to hear.
    I mean, when I first heard about this hearing for example 
the first thing I did is send a note out to my entire staff 
providing them once again, the third time in three months, the 
no fear whistleblower protection rights that they have, and 
saying, look, we need to celebrate our successes and where we 
can do better we need to welcome our staff to feel safe to come 
forward and provide this constructive criticism. I actually met 
with Ms. Kordich in a very small group last week. The position 
of senior counsel has a very unique vantage point in our work 
at the Board and met with them around the table, went around 
one by one, and I said there is this hearing coming up, very 
concerned about the original title, ``Data Manipulation and 
Mismanagement.'' And I said is there anything that you are 
aware of that we can work to do better? So Ms. Kordich did not 
bring to me all the things that she brought today, but I really 
look forward to setting a meeting with her and having more of a 
dialogue.
    Mr. Walz. Okay.
    Ms. Eskenazi. And again, I welcome all types of feedback, 
the good, the bad, the ugly.
    Mr. Walz. Is that the normal chain of command? I mean is 
this something, and she has got a chain of command, but if she 
is out of it do they, do you think she felt like she knew she 
could just come to you and get this done?
    Ms. Eskenazi. I hope so. But clearly if people do not think 
that I need to work harder on that.
    Mr. Walz. Would that help if the Chair of the Board were 
confirmed and in this? Or is this something, is that irrelevant 
to what we are doing? You know, we said we had this opening, 
she talked about there is an opening with the Chair?
    Ms. Eskenazi. Yes, certainly that position has been vacant 
since February, 2012. I think that the right type of leadership 
can certainly----
    Mr. Walz. So two things there. Either that is a totally 
irrelevant position that should be eliminated, or somebody is 
really messing this up. And so my take on this is I do not know 
how to go home and explain something like that. Especially, I 
mean and candidly, is it just politics holding this up? I mean, 
and all of us are part of that.
    Ms. Eskenazi. I mean, I am not involved in that process. 
Obviously that is a political process. I can say that I have 
only been in this capacity in the past 14 months and during 
that time we have put a lot of good measures in place. And I am 
very proud of the work that our staff has done. We do have a 
lot of hardworking staff and I do not want to undervalue that 
statement. I mean, our staff have really pulled through this 
year. And many of them are veterans or family members of 
veterans. In fact just last month I supported a staff driven 
request to have what we call a veterans service forum, where 
the staff were meeting on a regular basis and putting, just 
educating others who may not have served on active duty about 
what it is like to serve on active duty. And I am very 
supportive of all these employee driven initiatives.
    Mr. Walz. I agree. And I appreciate it. And I think that is 
the right way. I think you know this too, and it keeps coming 
back up. This is a zero sum proposition, though. If one veteran 
is waiting for four years that is what the story is going to 
be. So we have to, I mean, this has to be beyond six sigma. I 
mean, that has to be your goal. And I know that is a challenge. 
I guess our take is on this is there any way to, you know, 
triage and spot check that? Dang, if they are waiting for a 
signature personally walk over there and grab it and carry it 
to the judge and say finish this one now? I mean, legally are 
you tied that you cannot do that from docket order?
    Ms. Eskenazi. We do triage wait times within the Board. We 
have a number of internal management tools that we use. We are 
very mindful of the fact that staff, you know, we do not want 
to pressure our staff. We want them to feel safe to do quality 
work and meet their production goals.
    Mr. Walz. I agree. I agree.
    Ms. Eskenazi. But we do monitor that to make sure that, I 
mean, right now we have a database that is basically based on 
people entering data into it. And sometimes we need to 
constantly check what is in the database and make sure that no 
veteran's work has gone, you know, neglected. And that is why I 
put in the report in December of ranking every single case 
under the Board's jurisdiction and looking at it to see if 
there is any gaps or pitfalls and how we can assist.
    Mr. Walz. I appreciate it. And that technology, that is a 
whole other giant can of worms. Of why you are using an 
outdated piece of software when you have been given billions to 
not have that happen. That is another time.
    Mr. Coffman. Very quickly, Ms. Eskenazi, according to the 
interviews from the Oversight and Investigations Subcommittee 
staff to Ms. Kordich, her testimony was to the effect that she 
took the issues to the union representatives and the union 
representatives had taken her complaints to your office. Is 
that correct?
    Ms. Eskenazi. I meet regularly with our partners in AFSCME 
17. Actually we were supposed to meet with them this Monday and 
that meeting did not take place. And whenever they raise 
concerns, I am not aware of, you know, some of these things we 
have talked about before. And we look forward to continuing to 
partner with them. Our union representatives represent the 
bargaining unit members of the Board. But we are happy to talk 
to them about any of our staff or any concerns that anyone has. 
I appreciate the feedback.
    Mr. Coffman. Well again, my understanding is that no action 
was taken on the complaints given. Can you elaborate on that? 
No action was taken by you on the complaints brought forward to 
you via union representatives?
    Ms. Eskenazi. Which complaints in particular?
    Mr. Coffman. That of Ms. Kordich, that she testified on 
today.
    Ms. Eskenazi. Yes, I just saw her testimony today coming to 
this committee and there are many things in there, some of them 
I had not seen before. But again, I look forward to meeting 
with her or any others in the union, anyone at the Board, to 
continue to discuss these issues.
    Mr. Coffman. It is my understanding also that by law you 
can certainly take a course, I mean, take a case out of the 
docket sequence, but you cannot adjudicate a case outside the 
docket sequence and yet you have been doing that to make the 
numbers look better. I wonder if you could comment on that?
    Ms. Eskenazi. By law we are required to adjudicate appeals 
in the order in which they are placed on the docket, which is 
commensurate with the point in time at the VBA level. We have 
certain exceptions to put in front of the line case, veterans 
over the age of 75, veterans with severe illness or financial 
hardship, homeless veterans, and we do that regularly. We have 
a docket that changes everyday and we try to adhere to that, 
again using kind of manual processes and antiquated databases. 
Under the rocket docket program cases were taken out of docket 
order legitimately to prescreen to get the development that may 
be needed to get the case more ready to go to a judge. There 
were a small number of cases that were actually adjudicated 
during that process out of docket order. But for the most part 
they were allowances where somebody had screened the case----
    Mr. Coffman. But what does for the most part mean?
    Ms. Eskenazi. It means that there was about 400 that were 
decided out of docket order and the majority of those were 
actually allowances. So rather than putting the case back on 
the shelf----
    Mr. Coffman. So to your knowledge there was no violations 
of law in that your employees took a case out of order and 
adjudicated that case in violation of current law?
    Ms. Eskenazi. I am sorry, could you repeat that again?
    Mr. Coffman. That to your knowledge then there is no 
evidence that you are not aware that cases were taken out of 
sequence in violation of current law and adjudicated?
    Ms. Eskenazi. Cases were taken out of sequence for purposes 
of prescreening----
    Mr. Coffman. In violation of current law?
    Ms. Eskenazi. There were some cases that were allowed out 
of docket order.
    Mr. Coffman. And so to your knowledge no cases in violation 
of current law were taken out of docket order and adjudicated?
    Ms. Eskenazi. I just said there were some that were allowed 
out of docket order, yes.
    Mr. Coffman. You are saying that that was within current 
law?
    Ms. Eskenazi. Again, there were some, a small number of 
cases that had been identified for the rocket docket screening. 
And rather than remand those cases, the----
    Mr. Coffman. I am going to take it that that is in 
violation of current law. Very well. Thank you for your 
testimony.
    Ms. Eskenazi. Benefits were allowed for those veterans in a 
small number of cases.
    Mr. Coffman. Okay. Ranking Member Kirkpatrick.
    Mrs. Kirkpatrick. I just have one question. I am really 
just trying to grasp the magnitude of this problem. Given your 
existing staffing and your existing resources, if you did not 
get another appeal, this is hypothetical I know. But if another 
appeal did not come in and you just had your existing caseload, 
how long would it take you to adjudicate your current caseload? 
No new cases.
    Ms. Eskenazi. That is a great question. The Board's 
inventory today, and this is both physically at the Board and 
in transit from VBA, is approximately 60,000 appeals. Given 
that in this past fiscal year we had dispositions of 52,000 
appeals we could probably clear that inventory in just over a 
year using that same type of methodology. Keep in mind that a 
large number of the dispositions that we do at the Board are 
not final decisions. They are situations in which a 
circumstance has changed and we have to send back the appeal. 
So ordering perhaps a new examination to try and see if 
something can be obtained to substantiate that veteran's 
appeal. So built into this very unique appeals process that we 
have for veterans benefits law is a natural redevelopment 
cycle. And it is very unique among other legal systems that we 
have a system in which there is still an open record at the 
very end and still development work.
    Mrs. Kirkpatrick. Factor in that in your wait time. I mean, 
I am just trying to think from the veteran's perspective. So 
you said you have got so many cases right now, no new ones come 
in, I mean completely adjudicating the case so the veteran 
knows whether or not their claim has been processed. How long 
will that take?
    Ms. Eskenazi. Yes. And again, I want to restate my 
statement that no veteran should have to wait. I would like to 
turn to my Chief Counsel for Policy who just started at the 
Board a couple of years ago, came from the United States Court 
of Appeals for Veteran Claims, and has studied this very unique 
process in depth for many, many years. And he is an expert on 
this topic of this unique process. Mr. Ridgeway.
    Mr. Ridgeway. Sure. If you assume that we got no additional 
new cases we would have to do a regression analysis of what 
would happen to our current inventory. And historically what we 
would see is that about half of those cases would be resolved 
and then some veterans would have at least some of their issues 
remanded, and we would get about a third of those back. And 
then you would assume that, you know, half of those would get 
resolved, there would be more remands and then a third of them 
would come back. And so the number would go down from 60,000 to 
20,000 to 7,000, just doing the math in my head. But that would 
still even with the regression be probably close to a little 
under two years, I would think, if I do the math.
    Mrs. Kirkpatrick. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Coffman. Mr. Huelskamp, and then other members who have 
questions, I will entertain those questions.
    Dr. Huelskamp. Thank you, Mr. Chairman. If I might follow 
on this question of the very long outstanding case with Mr. 
Hachey, and who was very busy for many, many days, who did 
receive a significant bonus I guess because of his business. 
But why did it take Mr. Hachey 250 days to return this case to 
the attorney?
    Ms. Eskenazi. Sir, I would have to look into the 
circumstances of that individual case. Mr. Hachey is one of the 
brightest employees at the Board. And every case at the Board 
does not necessarily move at the same rate of time and you have 
to look into the individual case to ascertain exactly the 
circumstances of that specific case.
    Dr. Huelskamp. I cannot even fathom, 250 days? Just a wild 
guess of why----
    Ms. Eskenazi. We do have, we do have----
    Dr. Huelskamp. Let me understand, if I could.
    Ms. Eskenazi. Certainly.
    Dr. Huelskamp. So you have got to go in order, as I 
understand that. I presume during that 250 days he took every 
case out of order on top of it? Is that right? Or did he, he 
was doing other cases, right? For 250 days, I assume he was 
doing other cases, right?
    Ms. Eskenazi. He has many other duties besides adjudicating 
appeals. That is an ancillary duty for the position that he 
holds.
    Dr. Huelskamp. If he worked on other cases was he taking 
them out of order, then?
    Ms. Eskenazi. Cases are distributed from our central case 
storage, and that is the point at which they are coming out of 
order.
    Dr. Huelskamp. No, the question is was he taking them out 
of order? I presume he was not working on one case for 250 
days. Is that correct? I mean, he got a significant bonus.
    Ms. Eskenazi. I am not aware of him taking cases out of 
order. There are certain circumstances----
    Dr. Huelskamp. That is what I am trying to understand. I 
presume he did do one case and take 250 days. He took one case, 
put it on his desk somewhere, or in the file, and he worked 
others, and then decided I am going to go back and do Mr. 
Cisneros. That is what I understand. What happened here? And if 
you can get back to me as well. And Mr. Ridgeway, we handed you 
that listing of the one judge that was waiting. Do you have any 
comment on that? That is your report, not ours. So can you 
describe why there is 24 cases waiting on this judge for over 
100 days?
    Mr. Ridgeway. This is not a report that I generate or I 
use. This is a tool that is used by other parts of the Board, 
so it is not one that I am competent to speak of.
    Ms. Eskenazi. Certainly I am happy to speak to this report. 
This is a report that was, we have many internal management 
reports. This is a report that is looking at how long a case 
has been in a particular location for individuals to ensure 
work flow and it is a management tool used so that when there 
are spikes in the numbers you can go to the person with that 
case and say what is going on in this particular situation? Is 
there something that you need assistance with to get this work 
done? As I indicated, there are certain cases that by law can 
only be decided by certain individuals, when a hearing is held. 
And that is why as I start the fiscal year and I am setting the 
hearing schedule for this year I ordered that for people that 
had certain levels of cases that only they could decide that 
they not be doing hearings for some time, since those hearing 
cases can only be decided by that judge. So we also have to 
understand that there are certain situations----
    Dr. Huelskamp. I do not want to----
    Ms. Eskenazi. Sure.
    Dr. Huelskamp [continuing]. Take up everybody's time with a 
long explanation. I just want an answer to why that judge is 
sitting on 24 cases. Thank you, Mr. Chairman. I yield back.
    Ms. Eskenazi. Thank you.
    Mr. Coffman. Are there any further questions?
    Dr. Roe. Just one brief one.
    Mr. Coffman. Dr. Roe.
    Dr. Roe. We have got to go vote. I do not think you ever 
answered the chairman's question.
    Ms. Eskenazi. Okay.
    Dr. Roe. Ms. Kordich went to the union. The union did or 
did not come to you with a complaint, and you did or you did 
not address those complaints? Now is that, now that, I never 
did hear you answer his question.
    Ms. Eskenazi. There are----
    Dr. Roe. There were issues she had. She addressed those 
issues through the avenue that she knew, which was through her 
union representative. Did that person come to you, or persons?
    Ms. Eskenazi. I have not specifically discussed Ms. Kordich 
with the union. Some of the issues Ms. Kordich raised I 
discussed with the union, but I have not been made aware that 
they came from Ms. Kordich.
    Dr. Roe. Okay. So okay----
    Ms. Eskenazi. Today she----
    Mr. Roe [continuing]. You just, okay, I got it.
    Ms. Eskenazi. Rocket docket I discussed with the union on a 
number of occasions.
    Dr. Roe. You did not know it came directly from her?
    Ms. Eskenazi. That was not brought to me, no.
    Dr. Roe. And that is all I wanted to know. Okay, that makes 
sense. I yield back.
    Mr. Coffman. Mr. Takano, please quickly.
    Mr. Takano. Quickly, Ms. Eskenazi, you said rocket docket 
you discussed a number of occasions with the union. Why? Why 
was it such a subject of discussion?
    Ms. Eskenazi. Well we have obligations under the contract 
in the department to raise matters with the union when it may 
be considered a change in working conditions and we interpret 
that very broadly. And every time we are about to start any 
type of a new program, even the poster contest that was 
referenced here earlier, we do a memo describing what we are 
about to do, provide that to the union, and offer them an 
opportunity to discuss. Sometimes they do step forward and we 
discuss the matter. Other times they receive the memo and they 
do not discuss.
    Mr. Takano. Well my question is they were not bringing up 
objections to the fact that cases might be adjudicated out of 
order? That was not any part of what they were complaining 
about?
    Ms. Eskenazi. They had some concerns about the metrics used 
to select the cases for screening. And we used cases that had 
one or two issues and reasonable volumes in order to gain 
efficiencies in the screening process.
    Mr. Takano. All right. Thank you, Mr. Chairman.
    Mr. Coffman. Anyone else? Our thanks to the panel. You are 
now excused.
    Today we have had a chance to hear about many problems and 
abuses occurring within the Board of Veterans' Appeals related 
to the processing of veterans benefits claims. From the 
testimony provided and questions asked today I am alarmed at 
the excessive delays of our veterans claims and the length the 
BVA will go in order to hide that fact. As such this hearing 
was necessary to accomplish a number of goals. First, to 
identify the tactics being implemented by the BVA to hide 
excessive delays in processing veterans claims. Second, to 
require VA officials to explain their actions with regard to 
this manipulation of data. And third, to determine what steps 
are being taken or will be taken to correct these issues and 
improve the processing of veterans claims. I ask unanimous 
consent that all members have five legislative days to revise 
and extend their remarks and include extraneous material. 
Without objection, so ordered.
    I would like to thank all the witnesses and audience 
members for joining us here today on this critical issue.
    Ms. Eskenazi. Thank you.
    [Whereupon, at 3:12 p.m., the subcommittee was adjourned.]

                                APPENDIX

         Prepared Statement of Ann Kirkpatrick, Ranking Member

    Thank You, Mr. Chairman, and thank you for holding this hearing on 
this important topic.
    I would like to thank the witnesses for coming today to appear 
before the subcommittee.
    Over the last number of months we have become increasingly 
concerned that in the months and years ahead, we may be facing a new 
crisis with veterans waiting too long for decisions on their appealed 
claims for benefits. This is a critical concern to all of us, and 
having a hearing on the board of veterans' appeals is long overdue.
    I am concerned about the number of complaints and letters from 
various sources who have made significant allegations that employees 
may be attempting to game the system, are providing poor leadership, or 
that the electronic processing system, VBMS, of which taxpayers have 
invested hundreds of millions, is not performing adequately at the 
appeal level. Indeed, VBMS may not be ready for prime time.
    We must be assured that the data we get is accurate and represents 
the reality faced by our veterans. As we saw in Phoenix, this is 
essential not only for our oversight purposes, but to ensure that 
senior VA leadership has an accurate picture in order to provide 
leadership, plan for increased appeals in the future, and ensure the 
appropriate resources and tools are applied to address the problems as 
they exist before we face another crisis.
    I routinely hear from veterans in my district and in Arizona. They 
tell me that they are waiting years to receive a decision on their 
appeals. This is unacceptable. Our veterans deserve better.
    This is what we are all focused on today--how to address the real 
delay faced by veterans. I think we can all agree that more needs to be 
done and that there is a real concern that we may be exchanging a 
backlog crisis for an appeals crisis.
    Nationally, the average length of time to receive a decision on an 
appeal in FY 2013 was 960 days--nearly three years. Since then, the 
number of appeals has continued to grow. BVA projects a nearly 20% 
increase in the number of cases received at the board this year alone. 
As the VA continues to adjudicate claims more quickly, we should only 
anticipate the number of appeals waiting for a decision to increase. 
This means that without further action, our veterans will be forced to 
wait even longer for a decision on their appeals.
    Another factor leading to additional delays is that almost half of 
the cases sent to the board are remanded back to the VA for additional 
evidence or due to errors on the part of VA. A remand adds nearly a 
year to the time it takes for a veteran to receive a decision. To 
veterans who have already waited patiently through the VA backlog, a 
period nearing four years for a decision on an appeal is intolerable.
    Solutions are needed to ensure that we begin to reduce these delays 
and to ensure that the delay in appeals is not the next big crisis. I 
am hopeful that today's hearing will provide us with the opportunity to 
begin to identify solutions.
    I am particularly interested in hearing from Congressman O'Rourke 
about a voluntary alternative appeals process he developed with DAV. 
This may be one solution to decrease the amount of time our veterans 
must wait for decisions on their appeals.
    Another solution may be that more data is needed, not just better 
data. Congress, VA, veterans, and VSOS should all trust the quality of 
the data we are getting, and be satisfied that the data we are getting 
provides us with the information we need.
    I wish to thank the American Legion for emphasizing this in its 
testimony. VA provides an extensive amount of weekly data on VBA 
claims. By comparison, the board of veterans' appeals provides an 
annual report. I hope that we can begin the discussion today on how we 
can provide veterans with a better understanding of where we should be 
with regards to reaching timely outcomes on appeals.
    Simply put, veterans should receive better timelines and 
information than they currently get and congress should be receiving 
more frequent updates on the performance of BVA. Providing more 
comprehensive and accurate data will better enable us to provide 
oversight and work with BVA to find solutions to problems before these 
problems reach crisis status.
    Thank you, Mr. Chairman, and I yield back.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                 [all]
</pre></body></html>
